<html>
<title> - [H.A.S.C. No. 114-24]SPECIAL OPERATIONS FORCES IN AN UNCERTAIN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                          [H.A.S.C. No. 114-24]

                                HEARING

                                  ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                    SPECIAL OPERATIONS FORCES IN AN

                     UNCERTAIN THREAT ENVIRONMENT:

                    A REVIEW OF THE FISCAL YEAR 2016

           BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS COMMAND

                               __________

                              HEARING HELD
                             MARCH 18, 2015
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ____________
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-226                           WASHINGTON : 2015

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  
                                       
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                Peter Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Julie Herbert, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Lumpkin, Hon. Michael D., Assistant Secretary of Defense, Special 
  Operations/Low-Intensity Conflict (ASD/SOLIC)..................     3
Votel, GEN Joseph L., USA, Commander, U.S. Special Operations 
  Command........................................................     5

                                APPENDIX

Prepared Statements:

    Lumpkin, Hon. Michael D......................................    21
    Votel, GEN Joseph L..........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................    61
    Mr. Nugent...................................................    61

Questions Submitted by Members Post Hearing:

    Mr. Brooks...................................................    80
    Mr. Hunter...................................................    79
    Mr. Wilson...................................................    65
               


 
                 SPECIAL OPERATIONS FORCES IN AN UNCERTAIN

               THREAT ENVIRONMENT: A REVIEW OF THE FISCAL

      YEAR 2016 BUDGET REQUEST FOR U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                         Washington, DC, Wednesday, March 18, 2015.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, I call this briefing of 
the Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order.
    I am pleased to welcome everyone here today for this very 
important hearing, on our special operations forces [SOF] in 
the United States Special Operations Command [SOCOM], as we 
review the fiscal year 2016 budget request. With evolving and 
persistent threats being posted by state and non-state actors, 
our special operation forces have never been more central, 
strategic, and sought after. Illegal asymmetric enemy 
combatants not in uniform must be stopped overseas.
    From the unconventional hybrid threats of an aggressive 
Russia, to the troubling expansive and clandestine networks of 
Iran, and of course, an evolving Al Qaeda and their affiliates, 
now the Islamic State in Iraq and Levant known in the region as 
Daesh, we do indeed face an uncertain threat environment.
    Our special operations forces have been engaged in heavy 
combat and direct action for nearly 14 continuous years. It is 
imperative that we properly resource, train, and equip, to now 
deal equally as well with the hybrid and asymmetric threats of 
tomorrow and do so with the looming shadow of defense 
sequestration.
    Simply put, our national defense and security of American 
families depends on this. The House Armed Services Committee 
has consistently supported our special operation forces, 
providing additional authorities when warranted, authorizing 
additional funds for unmet critical requirements, and most 
recently resourcing important family support and suicide 
prevention programs to ensure our service men and women, our 
warriors and their families, are taken care of and know 
firsthand that humans are indeed more important than hardware.
    Although our support has been consistent, it has also been 
accompanied by prudent oversight and robust dialogue to ensure 
that we do all things that are right for the overall defense of 
our great Nation. The commitment and sacrifice of our special 
operation forces is evident to all of us. We examine this 
budget request to ensure that we in Congress are doing 
everything that we think is right and necessary for those units 
and their families.
    So, we look forward to discussing today the priorities for 
the U.S. Special Operations Command and our special operations 
forces for fiscal year 2016, and perhaps, more importantly, 
discussing candidly the challenges that stand before us today.
    We have before us a very distinguished panel of witnesses. 
The Honorable Michael Lumpkin, the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict, and 
General Joseph Votel, the Commanding General of the United 
States Special Operations Command. I would like now to turn to 
my longtime friend and ranking member Mr. Jim Langevin from 
Rhode Island for any comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for appearing before the subcommittee today to 
discuss the Special Operations Command fiscal year 2016 budget 
request. Although our conventional forces have seen increases 
in dwell time over the last few years as combat operations in 
the Middle East change in character, special operations forces 
continue to experience a very high operational tempo.
    The demand for SOF is high around the globe due to a 
variety of important missions, including counterterrorism. 
These operators, and the conventional forces that enable them 
to place their lives on the line each and every day far from 
home in order to keep us safe, and we should never lose sight 
of that sacrifice for which we are all very grateful.
    This subcommittee is keenly aware of the threats that we 
face and the importance of SOF missions to national security, 
and we have acted commensurately, both in funding and unique 
authorities such as those provided under section 1208.
    I look forward to hearing from the witnesses about the 
importance of these and other unique authorities as well as 
about authorities that may need to be extended in the National 
Defense Authorization Act [NDAA] for fiscal year 2016. If there 
are any new authorities that may be required to combat ISIL or 
conduct operations in areas outside the Middle East, like 
European Command, I hope that the witnesses will make that case 
this afternoon.
    Congressional oversight of such authorities as well as 
SOCOM funding is obviously very important. Our SOF personnel 
operate in uncertain, varying, and evolving environments that 
necessitate continuous assessment of the effectiveness and 
appropriateness of authorities granted. Our subcommittee has 
worked in the past to increase oversight through improved 
reporting, and I want to express my appreciation for the 
transparency of SOCOM. But internal oversight of SOF operations 
and SOCOM is just as important.
    Secretary Lumpkin, we recently had the opportunity to 
discuss the oversight council that you established, and I would 
appreciate it if you could provide the subcommittee with an 
understanding of the council, including members, meetings, and 
issues of focus.
    General Votel, I also look forward to hearing from you as 
well on the Preservation of the Force and Families initiative, 
among the other things under your responsibility, and I 
appreciate the meeting that you and I had yesterday.
    As I mentioned earlier, special operations forces continue 
to face high operational tempo. The mental health of the 
operators and their families remains a priority both for you, I 
know, and for Secretary Lumpkin and for this Congress. Last 
year our subcommittee, in conjunction with the personnel 
subcommittee, increased funding for mental health problems for 
SOF due to increases in suicides. Additionally, I sponsored a 
provision in the fiscal year 2015 NDAA to assess the 
effectiveness of SOCOM's alternative approach to mental and 
behavioral health in lieu of existing service programs.
    General, I look forward to working with you this year to 
continue to support our SOF members and their families. Our 
goal on this front, taking care of our force and their 
families, are one and the same.
    In closing, I want to express again my gratitude to General 
Votel for his service to our Nation and to Secretary Lumpkin as 
well for all you do for our Nation and the enduring commitment 
that you have to our men and women in uniform.
    Mr. Chairman, I want to thank you for convening this 
hearing today, and I look forward to discussion. Thank you.
    Mr. Wilson. Mr. Langevin, thank you very much, and we will 
proceed with Secretary Lumpkin. We look forward to your opening 
statements, of each of you, and then following that, we will 
have a 5-minute question period for each member as we 
alternate. And we are very fortunate that Kevin Gates will be 
maintaining the time. He is above reproach. So, we will begin 
with this Secretary. Thank you.

 STATEMENT OF HON. MICHAEL D. LUMPKIN, ASSISTANT SECRETARY OF 
 DEFENSE, SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT (ASD/SOLIC)

    Secretary Lumpkin. Thank you, Chairman Wilson, Ranking 
Member Langevin, and distinguished members of the committee. 
Thank you for the opportunity to testify before you today. I am 
glad to speak about the health and welfare of our Nation's 
special operations community and our capability to meet our 
Nation's most pressing national security concerns today and 
into the future.
    Currently, our special operations force, also known as SOF, 
work within an environment where fiscal uncertainty challenges 
us to think creatively and bridge gaps between resources and 
U.S. national security objectives. And where the changing 
nature of the threats we face today demands SOF's attention and 
engagement through agile authorities that enable us to remain 
ahead of our adversaries. Addressing how SOF will effectively 
operate within this environment, I would like to invite your 
attention to the following three topics.
    Foremost, SOF is navigating a challenging fiscal 
environment through enhanced oversight. As the ``service-like 
secretary'' of USSOCOM, I provide oversight and supervision of 
SOF resources, develop SOF policies for counterterrorism to 
counternarcotics, and preserve and protect our special 
operations force. This role becomes ever more challenging in a 
constrained budgetary environment in which we must use limited 
resources efficiently and effectively so that SOF is globally 
postured to support the combatant commands.
    With sequestration-level cuts set for fiscal year 2016 and 
beyond, we continue to strengthen our budget management in 
order to maximize taxpayers' return on investment in SOF. In 
addition, we look for innovative ways to use existing 
resources.
    Moving to my second point. SOF is most effective to handle 
the changing nature of threats that we face when agile 
authorities are available. From ISIL to pro-Russian rebel 
forces in Ukraine, the United States and our international 
partners face a diverse set of unconventional threats 
worldwide. Centered within the physical terrain, the human 
domain, information environment, and financial cyberspace. 
Additionally, our response efforts often require security force 
assistance missions in non-permissive and politically sensitive 
areas, where the host station demands discreet U.S. footprint. 
Due to its unique irregular and unconventional capabilities, 
SOF routinely becomes the force of choice. To this point, agile 
authorities maximize SOF capabilities helping support SOF 
operations.
    Support for foreign partners is fundamental to operational 
success in overseas contingency operations, and U.S. financial 
and logistic support is necessary to ensure their continued 
participation. With the codification of sections 2282, 1004, 
and 1022 in title 10 of the U.S. Code, the Global Security 
Contingency Fund and the new Counterterrorism Partnership Fund, 
we can assist our partners to address emerging threats and 
opportunities by building their security capacities before 
those threats exceed their ability to effectively respond.
    However, building partner capacity takes time. Our building 
partnership capacity authorities do not accommodate sustainment 
costs, so we work closely with the State Department to ensure 
partner nations eventually fund and sustain these programs on 
their own.
    Agile unallocated funding enables implementers to rapidly 
respond to urgent needs of partner nations more expeditiously 
and for a greater length of time than is possible through 
traditional mechanisms.
    And my final point, protection and preservation of SOF is 
of utmost importance. Our people are the foundation of special 
operations, and we strive to ensure our force and their 
families have a support system necessary to ensure their long-
term prosperity and health. Assessing our force structure, 
operational requirements, and capabilities at various 
resourcing levels, we have reshaped SOF's operational units, 
elements, and platforms so that we can meet future operational 
requirements.
    In addition, we seek to ensure the physical and mental 
resilience of the individuals who make up our force. Continual 
combat deployments combined with the demanding training regimen 
needed to keep the force sharp, have caused stress on the force 
and with their families. As ASD SO/LIC, I will continue to 
support enhanced resiliency training currently being conducted 
through USSOCOM service component programs.
    In closing, throughout the entire Department, we are 
committed to doing everything we can to ensure that our 
Nation's SOF have the best training, equipment, and overall 
support that we can possibly provide. We will continue to work 
closely with Congress and senior policymakers across the 
government to ensure that we have the right policies and 
oversight in place, so that SOF effectively operates within the 
current and future environments. I thank Congress for its 
continuing support of our special operation initiatives, 
resourcing, and personnel, and I look forward to your 
questions. Thank you very much.
    [The prepared statement of Secretary Lumpkin can be found 
in the Appendix on page 21.]
    Mr. Wilson. Secretary Lumpkin, thank you very much. General 
Votel.

STATEMENT OF GEN JOSEPH L. VOTEL, USA, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    General Votel. Good afternoon, Chairman Wilson, Ranking 
Member Langevin, and other distinguished members of 
subcommittee. Thank you for the opportunity to appear before 
you to discuss the current posture of the United States Special 
Operations Command, or SOCOM, as we call it. I am especially 
pleased to be here with my OSD [Office of the Secretary of 
Defense] teammate, Assistant Secretary Michael Lumpkin. SOCOM 
was created by the Congress to ensure that we always had ready 
and capable SOF forces to meet the Nation's challenges. Our 
ability to address these challenges is due in large part to the 
strong support we get from the Congress, from the House Armed 
Services Committee, and especially from this distinguished 
subcommittee. Thank you very much.
    I would like to start out by commenting on the amazing 
actions made every day by our special operations men and women. 
Operators, acquirers, logisticians, analysts, and many others, 
Active and Reserve, military and civilian, the total SOF force. 
Alongside our conventional force partners, the 69,000 quiet 
professionals of SOCOM are committed to values-based excellence 
and service to our Nation. They relentlessly pursue mission 
success, and today, roughly 7,500 of them are deployed to over 
90 countries worldwide supporting geographic combatant 
commander requirements in named operations.
    We are a force that has been heavily deployed over the last 
14 years, and our military members, civilians, and their 
families have paid a significant price physically and 
emotionally serving our country. We are very appreciative of 
the support we have received from Congress to address the 
visible and invisible challenges, and we never forget that for 
SOCOM, people are our most important resource.
    Today, the United States is faced with many challenges. The 
spread of technology and the diffusion of power are not only 
being used by responsible leaders to better societies, but 
unfortunately by wicked actors to orchestrate terror and 
violence regionally and globally. Non-state actors like Al 
Qaeda and ISIL and other violent extremist organizations, 
menacing state actors like North Korea, and growingly coercive 
actors like Russia are just a few examples of the entities 
affecting the strategic environment in which we operate. We are 
equally affected by the growing use of cyber capabilities and 
social media which make it easy for our adversaries to 
communicate, coordinate, execute, and inspire their actions.
    The fiscal environment is of concern as well. While SOCOM 
has been well supported in recent years, I remain profoundly 
concerned by the impact of another round of sequestration and 
how it not only impacts SOCOM, but more importantly, how it 
will affect the four services upon whom we are absolutely 
dependent for mission support.
    To address the challenging security environment, SOF 
provides a portfolio of options to our national leaders and to 
the geographic combatant commanders. Through small footprint 
operations and by relying on a network of purposeful 
partnerships, SOF provides a comparative advantage through 
persistent engagement, partner enablement, network focus, and 
discreet rapid response to crisis situations.
    While we support military operations across the spectrum, 
SOF capabilities are uniquely suited to operate and succeed in 
the gray zone between normal international competition and open 
conflict, and it is in this area where we see our very best 
opportunities to help shape the future environment.
    To enable our efforts, I have established five priorities 
for the command. First, we must ensure SOF readiness by 
developing the right people, skills, and capabilities to meet 
future--current and future requirements. To this end, we want 
to ensure effectiveness now and into the future with the very 
best SOF operators and support personnel enabled by the best 
technology and capabilities we can field. Along the way, we 
want to make the very best use of the unique MFP-11 [Major 
Force Program-11] authority that Congress has granted us.
    Second, we must help our Nation win by addressing today's 
security challenges. We strive to provide coherent and well-
integrated SOF forces for the geographic combatant commanders 
focused on optimizing our SOF activities. Nearly everywhere you 
will find SOF forces working alongside and often in support of 
their conventional force partners, helping accomplish our 
security objectives.
    Third, we must build purposeful relationships to improve 
global understanding and awareness to create options for our 
leaders. We don't own the network, but we are an important part 
of it. In working with our partners, we will always produce the 
best options for our Nation.
    Fourth, we have to prepare for the future security 
environment to ensure that SOF is ready to win in an 
increasingly complex world. Ultimately, our goal is to match 
exquisite people with cutting-edge capability and the very best 
ideas to help our Nation succeed against the looming challenges 
we will face in the future.
    Finally, we must preserve our force and families to ensure 
their long-term wellbeing. It is this area we are especially 
focused on, where we are especially focused on a holistic 
approach to address the invisible challenges of stress and 
suicide that are affecting our service members, civilians, and 
their family members.
    In closing, I remain honored and humbled by the opportunity 
to command the best special operations forces in the world. I 
am incredibly proud of each and every one of our team members 
and their families. I look forward to your questions and our 
dialogue today.
    [The prepared statement of General Votel can be found in 
the Appendix on page 37.]
    Mr. Wilson. Thank you very much, General Votel, and thank 
both of you for being here this afternoon. We are going to 
begin now the 5-minute round of each member of the 
subcommittee, and each of us will be strictly held to 5 
minutes, and Mr. Gates will maintain those--the clock.
    My first question for both of you is--deals with the 
impacts of defense sequestration on national security and our 
military. I notice this has impacted even the special 
operations forces. And for both of you, can you provide 
specifics of how defense sequestration has impacted special 
operation forces, without a solution to defense sequestration, 
what damage will be done? And I am particularly concerned about 
readiness. And we will begin with the Secretary.
    Secretary Lumpkin. Thank you, Mr. Chairman, for that 
question.
    The--well, as General Votel mentioned in his opening 
statement, the reliance of support from the services is where 
we see the largest impact from where I sit is when we look at 
what the impacts of sequestration would have on USSOCOM. 
Potential of losing ISR [intelligence, surveillance, 
reconnaissance] support, impacts on modernization of our air 
fleet, modernization across the board on those service-
supported surface common items. It will also slow our 
modernization across the board, and so I have real concerns 
about that.
    We have had to, based on where we were in 2014, as we ended 
up divesting ourselves from program growth and combat support 
and combat service support, and I fear that if sequestration 
were to take effect in 2016, the services would divest of the 
support that we are now more reliant on than we would have been 
before. So, I see the impacts, while not direct, would be 
significant nonetheless.
    General Votel. Thank you, Mr. Chairman. I think where we 
will see some immediate impacts will be in perhaps in some of 
our key investment areas. That would include the procurement 
and recapitalization of some of our air, ground, and maritime 
platforms, could affect our enhancing of SOF-specific ISR 
capabilities that have been so effective for us, fighting some 
of the enemies we deal with today. It could also affect our 
communications infrastructure and equipment technology upon 
which we depend to conduct global operations, and so that is 
the impacts, I think, on SOCOM.
    Beyond that, as I mention, I am very concerned about the 
impact that it has on the services. The lack of availability of 
air, ground, and especially maritime platforms will affect our 
readiness and our training exercises that we count on to be 
ready to deal with situations that will affect our operational 
effectiveness when we are conducting operations.
    We depend heavily on service-provided capabilities to 
support us. A good example, of course, is the Navy's helicopter 
capability that it has provided in the past for us which as it 
now goes away is a lost service-provided capability that we no 
longer are able to rely on.
    Beyond that, we are impacted by SOF--we will be impacted by 
SOF-specific enhancements to service-managed programs, as they 
draw down some of their areas there. That will impact us, Mr. 
Chairman.
    Mr. Wilson. Well, thank both of you, and indeed, I believe 
the members of our subcommittee share your concerns. Secretary 
Lumpkin, I am really grateful. I work with the Partners of the 
Americas program in Colombia, and we have had many exchange 
students. Two of my sons went to high school in Cali, Colombia, 
and then I have a very significant Filipino-American population 
in the district that I represent. And in your written 
statement, you indicate about the strategic engagement in both 
Colombia and the Philippines. What is the status and what is 
the future of what has been so successful in both countries?
    Secretary Lumpkin. Thank you, Mr. Chairman, and you are 
absolutely correct. Both of those endeavors have been 
successful. They have been--each has been long term. We have 
been in Colombia since the--and supporting the government there 
since the mid 1980s. We developed Plan Colombia. We have 
invested heavily through Plan Colombia itself, and as we are on 
the cusp of having a peace dividend, as the peace accords 
between the FARC [Revolutionary Armed Forces of Colombia] and 
ELN [National Liberation Army] and the Government of Colombia 
are being realized, we will see some reduction there of our 
support.
    What does concern me is the ideas of a vacuum that may be 
created when these insurgent groups are no longer there, and it 
may open itself up to transnational organized crime. So, I 
think we need to continue to engage decisively with the 
Colombians to make sure that we are providing them the support 
they need, in those areas have been controlled by these 
insurgent groups that criminal activities don't take over.
    In the Philippines, again, we have had a lengthy 
relationship with our Filipino partners as they work to remove 
the insurgents from the southern part of the country. We have--
are transitioning that mission now as we built capacity there, 
but we have to remain engaged with them to make sure that we 
don't lose the gains that we have made.
    Mr. Wilson. Well, thank you. In both countries, I really 
wish the American people knew of the success and that success 
can be achieved against narcoterrorists and the 
destabilization. We now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again, thanks to our 
witnesses. Secretary Lumpkin, if I could start with you. Last 
year you established the Special Operations Oversight Council, 
and I referred to that in my opening statement, to provide 
policy oversight and guidance to SOCOM. The council was to 
coordinate special operations related matters across the Office 
of the Secretary of Defense and service secretary staffs, and 
address key issues in the areas of special operations policies 
and operational priorities, budget execution, force employment, 
legislative changes, and required capabilities.
    So, what actions in the areas of policy and operational 
priorities, budget execution, force employment, proposed 
legislative changes, and required capabilities has the council 
reviewed or taken to date, and what were the results of the 
review of any related issues?
    Secretary Lumpkin. Thank you very much for the question, 
sir.
    When I created the Special Operations Policy Oversight 
Council, it wasn't to supplant any of the responsibilities that 
I had as driven by statute as the assistant secretary. Once I 
assumed office, what I quickly realized is that as USSOCOM has 
grown and become more complex in the nature of their operations 
and what they do, we were on a 20 percent manpower reduction 
within the Office of the Secretary of Defense. So, the scope of 
the work was getting more complex and my staff was shrinking. 
So, I needed another tool to make sure that I had in my tool 
bag in order to make sure I could cut across those issues 
within the Department, so we created the council.
    We have had numerous meetings of leadership and working 
groups which have proven to be profoundly successful. We have 
tackled three principal issues thus far. We have tackled 
intertheater airlift, support special operations forces within 
the different geographic combatant commands. When USSOCOM took 
OPCON, Operational Control, of the Theater Special Operations 
Commands, when they started doing these--the JCET [Joint 
Combined Exchange Training] training, there was issues of who 
was going to pay the bills. We were able to work through that 
process to make sure it was crosscutting within the Department 
and everybody was clear. Unfortunately, this is one of those 
where USSOCOM got the bill, but rightly so, because the JCET is 
51 percent of the benefit needs to be for the SOF personnel, so 
that made sense.
    We are also working to establish--the next topic that we 
took on was MILCON [military construction], and it is when 
should we and when should we not use MFP-11 funding for 
military construction. And the final one is coming up with a 
real definition of what is SOF-peculiar so we know where the 
bill should go with the services versus within USSOCOM.
    Those two, we haven't finalized the results yet. We are 
still working, but it has proven to be very successful and 
gives me the ability to--the other that it really gives me the 
ability to do is that I walk a line at times between providing 
oversight and advocacy for USSOCOM.
    So, what this does when I get a decision that is 
crosscutting and everybody is in agreement and I can clearly 
shift in everybody's mind from being oversight to advocate, to 
make sure that everything is done, and it makes it very easy 
for all to understand the building. So for me, that is the real 
benefit in addition to being able to navigate some of these 
sticky wickets.
    Mr. Langevin. Okay. Thank you. So, you alluded to this a 
little bit, but how do the roles and responsibilities of the 
council differ from the roles and responsibilities of the 
Office of the Secretary of Defense for Special Operations and 
Low-Intensity Conflict, SOCOM, or the military department?
    Secretary Lumpkin. Again, it is a--I look at it as a tool 
that informs me, that helps me make better decisions, and so I 
can take it to the Under Secretary of Policy, the Deputy 
Secretary, or the Secretary to bring resolution to any 
conflict. So again, it is just a tool for me, and it doesn't 
supplant any of my roles or responsibilities.
    Mr. Langevin. Okay. Thank you.
    General Votel, as I noted in my opening statement, global 
demand for special operations forces obviously continues to be 
high. What impact has the continuous high tempo had on force 
readiness, training, mental health, and the like, and also, 
what steps is the command taking to ensure the global demand 
for positioning of special operations forces is met today and 
in the future?
    General Votel. Thank you. Thank you, Congressman. So, we 
have continued to pay a lot of attention to our PERSTEMPO 
[personnel tempo] of our deployed members, and we, over the 
last couple of years, with the support of Congress, have been 
able to get a good process in place where we can manage our 
PERSTEMPO much better now, so we understand what the deployment 
tempo of our people are, and we put in policies and practices 
in place that allow us to actually control that and manage that 
and understand what the impact is on the force. And so that has 
helped us manage the force better than perhaps we were doing 
that in the past.
    What that is really translated into is, is our components 
being able to organize their forces in a manner so they could 
have forces that were forward deployed, deployed doing the work 
of the Nation. They could have forces back in recovery and they 
could have forces recovering, so it is kind of one-third, one-
third, one-third approach is what we strive to do. And while we 
are not complete there in all of our components, we are 
definitely moving in the right direction to try to control 
that.
    Mr. Langevin. Okay.
    Mr. Wilson. Thank you very much, and Mr. Langevin, we now 
proceed to Congressman Doug Lamborn of Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman, and for having this 
hearing, and thank you all for being here and for your service. 
My first question has to do with legal authorities and rules of 
engagement. Given the sensitive nature of the missions that 
special operation forces conduct and sometimes the fast-moving 
nature of those and lethal nature of those engagements, are you 
concerned that sometimes the need to lawyer up is just so 
burdensome, or that the rules of engagement are so restrictive 
that you find it difficult to carry out the missions properly, 
and if so, can we help you in that regard?
    General Votel. Thank you, Congressman, for the question. 
The answer, from my perspective, is I don't see that as an 
impediment to our operations right now. I think we have very 
effectively integrated operational law into our activities, and 
in--as in my experience, we have had the rules of engagement or 
we have had the process in place that has allowed us to go back 
and ask for the rules of engagement that are required to 
conduct the operations which we have been asked to undertake.
    Mr. Lamborn. Would you care to add anything to that?
    Secretary Lumpkin. I agree completely. I haven't seen an 
issue where we were up against a rules of engagement issue that 
we couldn't resolve in a very rapid and timely manner.
    Mr. Lamborn. And to have control and legal authority, is 
that a concern at any time?
    General Votel. It is not a concern for us right now. We 
have been well served by the previous AUMF [authorization for 
use of military force], and I am hopeful that future AUMF 
will--I think it gives us what we need.
    Mr. Lamborn. Okay. And I will just comment on that I don't 
want to see restrictions on any future AUMF that do tie the 
hands of our military too much, so I would like to see that 
open-ended as much as possible.
    What is the status of--and by the way, I do appreciate the 
10th Special Forces [Group], which is in my district at Fort 
Carson and Germany, great group of people. I always enjoy 
visiting them, and I enjoyed taking Chairman Thornberry out to 
see them last August, so.
    What is the status of the Preservation of Force and 
Families program these days?
    General Votel. Thanks. Let me talk about that. I think we 
are making significant progress in this area. The investments 
that we have made over the last several years with the support 
of Congress, I think, are making a big difference. While I 
still think the force is stressed, I think it is lessened than 
we have seen in the past. So, I have a holistic approach here 
that addresses the physical, spiritual, the emotional, 
psychological aspect of this, I think is beginning to pay off.
    I think we have got a good strategy in place to address our 
most pressing problems, which I consider to be the invisible 
challenges, the stress that is leading to suicide or suicide 
ideations, and I think we have got a good approach to this. And 
we are really focused on three big objectives.
    One is to empower our people by communicating to them the 
variety of resources that are available.
    Second, is to enable them by providing as easy of access as 
we can to those resources so that they can take advantage of 
them.
    And then finally is to encourage them by emphasizing that 
it is absolutely normal to seek care for yourself and your 
family and that we expect that and we encourage it and there is 
no stigma associated with that.
    And I am--we are beginning to see indicators now that that 
message is sinking in and that understanding is going down into 
the SOCOM force.
    Mr. Lamborn. Okay. Well, that is great to hear. I want to 
thank you for your service and for being here today. Mr. 
Chairman, I yield back the balance of my time.
    Mr. Wilson. Thank you, Congressman Lamborn. And we now 
proceed to Congressman Jim Cooper of Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman. I was not here for the 
opening statements. I will yield to another colleague.
    Mr. Wilson. Then Congressman Rich Nugent all the way from 
Florida.
    Mr. Nugent. Thank you, Mr. Chairman, and I want to thank 
both of you for your service, and we are just up the street 
from you, so we appreciate it.
    General Votel, in the NDAA, I will be asking for a report 
to explore the future of directed-energy weapons within SOCOM, 
and I am encouraged to see that SOCOM already is looking into 
directed-energy solutions, and I would just like to emphasize 
to you that I am going to be very, very protective of keeping 
your flexible and relatively agile acquisition system 
uninhibited if I can. For the subcommittee today, would you 
just give us some broad strokes of what that report would look 
like. In other words, you know, what would SOCOM's future plans 
be as relates to directed energy?
    General Votel. Congressman, I will take, first of all, I 
will take the question for the record and we will provide you a 
detailed response, and we will look into the very specific 
capabilities.
    I thank you for your continued support of our acquisition 
capability. You know, the advantage, I think, we have is that 
we can--we can very closely link the requirements of the 
operators to our acquisition arm, and unlike the service chiefs 
that you heard of yesterday, I do have a very close 
relationship with my acquisition authority, and because of the 
great authority that Congress has provided us, we are able to 
respond quickly.
    Broadly, to your question on directed energy, we are always 
looking at the very best tools that we will require for the 
future. Certainly directed energy fits into a model that we 
have been proceeding against for some time which is precision 
and accuracy in the employment of our weapons systems, and I 
think that directed energy offers us a great opportunity in 
terms of that. So, I look forward to providing you a more 
detailed response on that for the record.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Nugent. Well, General, I appreciate that. Now, in the 
fiscal year 2015 NDAA directs a report on technology roadmap 
for underseas mobility, and of course, I am very interested in 
the full details of that report later this year, but I want to 
ask for maybe just a preview of just two parts of that dry 
combat submersible program. What requirement drives the 
development of a dry combat submersible, one, and in an 
unclassified setting, what do you need a dry combat submersible 
to do, if you could? And I understand this is not a classified 
setting so----
    General Votel. Yeah. Thanks. And again, I think this 
probably would be best discussed in a classified setting, 
Congressman, but in general, what it allows us to do is, it 
allows us to take the full opportunity of the maritime 
environment to pursue the full range of missions that SOCOM 
does on behalf of the Nation. And that includes those sensitive 
activities that we do out there, and this really does provide 
us a very unique capability to--in place our operators or our 
folks at the right place to pursue the missions that we have.
    So, we look forward to kind of laying that out for you in a 
classified setting, but I do think it allows us to take the 
full opportunity of the maritime environment to accomplish the 
missions that we are assigned.
    Mr. Nugent. I appreciate that. I appreciate both your 
comments, though, in regards to what sequestration, while may 
not directly affect you, but the--you know, the services that 
support you, it will affect, and it certainly will have an 
effect on you in regards to implementing your mission, and I 
worry about the fact that we are going to be limited in regards 
to being able to project that force where we need it in 
pinpoint accuracy if we continue with sequestration.
    I know the chairman is in agreement with that. 
Sequestration is a cancer that is going to eat and destroy our 
national security, and it is one that we are all very, very 
invested in trying to turn around.
    So, I appreciate your service, both of you. Thank you very 
much, and I yield back.
    Mr. Wilson. Thank you, Congressman Nugent. We now proceed 
to Congressman John Garamendi of California.
    Mr. Garamendi. Mr. Chairman, thank you, and for the two 
witnesses, my apologies for not being here. We seem to have 
three Armed Services Committee subcommittees operating at the 
same moment, including the Coast Guard subcommittee, so--just a 
question. I am going to follow up. I think this is a question 
that, Mr. Lumpkin, you were asked, maybe Mr. Langevin asked 
this question. And in the operations of the special operation 
forces, you do different things and for different parts of the 
security--national security. Who winds up paying for the pieces 
that--where let's say it might be a naval operation or an Army 
or a Marine operation, who winds up paying for these 
operations?
    Secretary Lumpkin. I think we have two parts of the payment 
issue. One of them is in how we procure equipment and things of 
that nature. If it is a what we call a service common item, 
then the service would pay that requisite bill, and then 
anything that was peculiar to the special operations community, 
we would use MFP-11, that is Major Force Program-11 funds to go 
ahead and pay that, whether it is to modify it or adjust it to 
make it useful for us the way we need it--what we need it to 
do.
    Operations themselves, I mean, for overseas contingency 
operations generally come out of the Department's OCO funding, 
so we have--there is funding. And so what--who is paying for 
the bill really kind of depends on the nature of the operation 
of whose OCO account it would come out of, but I can give you a 
detailed breakdown of that if you would like. I would be happy 
to take that for the record for you.
    Mr. Garamendi. Yes, if you would. I think this--I know that 
Mr. Langevin was interested in that and as am I, but yes, if 
you would please do that.
    Secretary Lumpkin. I will do that.
    [The information referred to can be found in the Appendix 
on page 61.]
    Mr. Garamendi. We know that in Iraq and Syria, it is 
anticipated that the special operations units will be used. Is 
that going to be--how does that get paid for, and what is the 
extent of that? We are going to have to deal with an AUMF here 
pretty quickly, at least we should, and the issue is not just 
the men and women that are going to be deployed, but then how 
much is it going to cost us to deploy them. Mr. Lumpkin, and 
then, General, if you could delve into that.
    Secretary Lumpkin. And those operations in Iraq and Syria, 
those that are going on today in support of the Iraqi 
Government and such are paid for through OCO, but I mean, that 
will be part of the breakdown that I will get you is the actual 
dollar figures that are being used today. We can do that.
    Mr. Garamendi. It seems to me that one of the important 
things we ought to be considering as we deal with this AUMF is 
that it will be expensive, or have some expense, for the 
taxpayers of the United States. We need to know, at least have 
some really good idea how much this is going to cost us, and we 
also know that it is likely to be expensive for the men and 
women that are involved, quite possibly with death and injury. 
So, we need to know that also. So that is something that is on 
my mind. I hope it is on the rest of my colleagues' minds also.
    Finally, in the last few moments here, we spend a lot of 
time in other subcommittees dealing with communications. GPS 
[Global Positioning System] is vulnerable. What steps are being 
taken by the special operations that are extensively using that 
particular technology to deal with its interruption? Whichever 
one of you would like to jump into that.
    General Votel. Thanks. Thank you for the question, Mr. 
Congressman. We obviously, as I mention in my opening 
statement, we are very concerned about the cyber environment 
and these different ways that people can come after our use of 
technologies, our use of the Internet to support us. So, in 
conjunction with direction we have gotten from the chairman and 
working along with Cyber Command, we are very much in the 
process of addressing our cyber protection capability, both 
reliant on resources that are made available to us from the 
Cyber Command and by elements that we will stand up within 
SOCOM to get after that particular problem.
    So, we are very alert to the threat that you just outlined 
right here, and certainly GPS is something that is impacted, 
but certainly all of our communications and communications 
architecture is potentially at risk as well.
    Mr. Garamendi. Much of the rest of the world is looking at 
what is known as advanced or eLoran systems. I would like to 
have some comment from you on the record about what you may be 
using in that regard, not just within the United States but 
around the world where this is actually being deployed by some 
people that we are very interested in. Thank you.
    General Votel. Thank you, Mr. Congressman.
    [The information referred to can be found in the Appendix 
on page 62.]
    Mr. Wilson. Thank you, Congressman Garamendi. We now 
proceed to Congressman Mo Brooks of Alabama.
    Mr. Brooks. Thank you for your service. As you are aware, 
Capitol Hill is engaged in a significant debate over the 
budgets. We have got the White House budget, we have got the 
House budget, and presumably the Senate is also working on a 
budget. The President's proposed budget for national defense is 
$561 billion, roughly, for base defense and another $51 
billion, roughly speaking, for OCO, for a total, roughly, of 
$612 billion. The House budget for national defense is $523 
billion for base, that being the amount set forth in the Budget 
Control Act, and roughly $90 billion for OCO.
    To state it a little bit differently, base defense budget, 
President, $561, which is $38 billion more than permitted under 
the Budget Control Act, and the $523 billion that the House 
budget, at least as of this moment, represents. And on the OCO 
side, the President's budget proposes $51 billion while the 
House is $39 billion more, OCO.
    So, we have $612-, $613 billion from the two budgets being 
spent on national defense, but the key issue is, which is 
better for our national defense? For the money to be in the 
base or the money to be in OCO? Can you please share with me 
your insight on which you think is a better place to put the 
money and how that affects our security capabilities, and 
whoever wants to go first can go first.
    Secretary Lumpkin. Thank you. Thank you, sir. I appreciate 
the question very much. The challenge we have with OCO is it 
is, you know, the money comes that year and you have got the 
year. You don't have it in the outyears. It is not something I 
can sit here and plan on, so it actually increases my fiscal 
uncertainty. Because, I am going to buy a piece of equipment, 
for example, and I can't count on I am going to have the 
sustainment costs in the outyears because I--it is kind of 
like, if I had to give an example, like buying a car and not 
knowing you can pay the car insurance 2 years from now or put 
gas in it or do the maintenance. And so, while you end up with 
the same dollar figure when it is done for that particular 
year, and I just don't know what I have got in the future, so 
it is very difficult for me to plan.
    So as I am looking at programmatics from where I sit, I am 
frequently figuring what is my exit strategy if I don't get the 
funding in the future to fix it. Each one will meet a very 
short-term need, but in the outyears, it becomes problematic 
when we have this reliance on OCO and don't move it over to 
your base budget.
    Mr. Brooks. So, you have got the adverse effect on planning 
and what I might infer as the adverse effect on purchasing 
capital goods.
    Secretary Lumpkin. Exactly.
    Mr. Brooks. Long term.
    Secretary Lumpkin. Exactly, yes. Yes, sir.
    Mr. Brooks. Okay. Anything else? Any other adverse effect? 
Or--General Votel?
    General Votel. I would just--I would add I agree with 
Secretary Lumpkin in his comments that it is better in the 
base. I think the big advantage is that the base funding 
provides us certainty in a time of uncertainty as we continue 
moving forward in this very complex environment.
    And so, I think that helps us plan better, I think it helps 
us make better investments long term, and then of course it 
gives us the best ability to sustain those programs as we move 
forward. So like the Secretary said, both of these will work in 
the short term. The base, I think, helps us for the longer term 
concerns.
    Mr. Brooks. Let me focus on the OCO money again for just a 
moment. If the House were to pass a budget that spent roughly 
$90 billion on OCO, and giving the planning and spending 
inhibitions that you have just--or problems that you have just 
described, is all that $90 billion have to be spent by the 
Department of Defense or is some of it just not going to be 
used because you can't properly plan and use it?
    And I don't know the answer to these questions. That is why 
I am asking them.
    Secretary Lumpkin. You know, I don't want to necessarily 
speculate on--but I would say there is a possibility of that 
that it may not all get used.
    Mr. Brooks. General Votel.
    General Votel. I would agree. I think the disadvantage of 
single-year money, which OCO generally is, does create that 
risk that we may not build up, employ large sums of it that 
way. As it is right now, you know, our--we do--part of our 
budget, we do ask for some OCO funding and so we are able to 
plan for some of that, but I--again, I think I would be 
speculating a little bit here.
    Mr. Brooks. Well, I have got roughly 15, 20 seconds left. 
Anything else you all would like to add that would help me 
decide how to vote on this issue?
    Secretary Lumpkin. I am just of the opinion that if it is 
important enough to do and it is part of what you should be 
doing every day, it should be in your base budget.
    General Votel. I think our people deserve a certainty.
    Mr. Brooks. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman Brooks. And at this time 
if there are any further questions, they can be submitted for 
the record.
    And I would like to thank again, Mr. Secretary, General, 
for your being here today. I am grateful to be serving with 
Congressman Langevin, and at this time we are adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

     
=======================================================================
                            A P P E N D I X

                             March 18, 2015

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2015

=======================================================================

      
     
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 18, 2015

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. NUGENT

    General Votel. USSOCOM is committed to remaining on the cutting 
edge of technology to provide the best tools to meet the operational 
needs of Special Operations Forces (SOF). Directed energy (DE) remains 
a technology of interest for meeting these capability needs. DE offers 
the advantage of ultra-precision and rapid target engagement, but has 
significant systems engineering, platform integration and operational 
policy challenges.
    USSOCOM has operational requirements in several mission areas where 
DE capabilities have potential applicability. The June 2012, 
``Capability Production Document for AC-130 J,'' includes an objective 
key performance parameter that calls for the system to provide ``the 
capability to incorporate future DE weapons, to include lethal and non-
lethal variations.''
    USSOCOM has executed, funded and/or endorsed several development 
programs for DE systems in the last 20 years. Only one classified DE 
system is currently fielded by USSOCOM and being used in SOF 
operations. The Services have fielded laser dazzler systems to some SOF 
under Service acquisition programs. USSOCOM is currently assessing 
other DE capabilities for SOF operational use. One current initiative 
includes a DE development effort funded by the Joint Improvised 
Explosive Device Defeat Organization (JIEDDO) that is being assessed 
against sensitive SOF user requirements and concepts of employment 
(CONEMP). USSOCOM has initiated assessment of the potential use of DE 
as an operational capability for a future upgrade of some AC-130J 
aircraft. USSOCOM is also assessing DE as a future capability for 
vehicle- or vessel-mounted systems to address approved operational 
requirements. These efforts are currently in the technology assessment 
stage, and specific development or acquisition plans or timelines have 
not yet been developed.
    Unfortunately, the majority of USSOCOM's DE development programs 
have been terminated prior to fielding. For example, USSOCOM recently 
terminated three JIEDDO-funded DE development programs due to 
insufficient technology maturity. The cancelled DE development programs 
for SOF have failed to meet user requirements for one of the following 
two reasons: failure to meet technical performance thresholds (e.g., 
power output, operating time, target effects); and/or inadequate 
systems engineering to allow them to operate under the required CONEMP 
in SOF operational environments (e.g., ruggedization, resiliency, 
platform integration).
    DE shows promise for a variety of missions and target sets if the 
technical performance, system engineering and platform integration 
challenges can be resolved. USSOCOM is highly dependent on the 
Department of Defense research and development communities to address 
these DE development and systems engineering challenges, as well as 
foster a robust DE industrial base to provide any future capabilities 
to SOF. As DE technology matures, additional emphasis needs to be 
placed on the systems engineering challenges it poses for integration 
into operational platforms for use in combat environments. Given the 
complexity of integrating DE on the platforms listed, it is USSOCOM's 
intent to leverage Service/Agency development, and serve as early 
adopters once the technology and its system engineering challenges have 
matured.   [See page 12.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    Secretary Lumpkin. As a general rule for operations, U.S. Special 
Operations Command (USSOCOM) funds the deployment and sustainment of 
its forces. However, for each operation, the Geographic Combatant 
Commander (GCC) will normally designate a lead service to provide 
common logistics support for all other service units participating in 
the operation, including in the planning and execution phases.
    These assignments of responsibility can be for multiple common 
logistics functions and different locations within the area of 
responsibility. For example, during Operation Enduring Freedom (OEF) in 
Afghanistan, USSOCOM funded deployment, temporary duty costs, 
sustainment, and SOF-peculiar requirements. While the Army, as the 
designated lead service in Afghanistan, provided the necessary common 
logistics, service-common communications, and installation support for 
SOF in Afghanistan. These activities are typically funded through the 
Department's Overseas Contingency Operations (OCO) appropriation when 
applicable.   [See page 13.]
    General Votel. United States Special Operations Command (USSOCOM) 
is not investigating eLoran (long-range aid to navigation) as a back-up 
system for flight operations in GPS-denied environments. Our aircraft 
already have navigation system redundancies that allow the aircrew to 
select from multiple navigation sources for both system redundancy, and 
for operation in denied or degraded environments. While eLoran does 
provide GPS back-up, it does not provide world-wide capability in the 
areas of interest for USSOCOM. Although eLoran may provide a 
navigational back-up capability in the future, the lower fidelity 
information provided would not be sufficient for USSOCOM needs. USSOCOM 
supports GPS hardening and software architecture fixes to their fleet 
of aircraft to mitigate our specific GPS vulnerabilities.   [See page 
14.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 18, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Many of our potential adversaries have become very 
adept at manipulating the information environment to radicalize, 
recruit and gain support their cause. That requires a robust, concerted 
and strategic effort to counter those messages and kill the ideas that 
drive their extremist movement movements. Do we have a strategy for 
attacking adversarial messaging and propaganda? What tools do you have 
at your disposal to counter those sorts of messages? Where do you see 
gaps in our capabilities that you think we should be trying to address?
    Secretary Lumpkin. Without going into sensitive or classified 
activities, the Department through the Geographic Combatant Commands 
executes counter adversarial messaging activities directed at specific 
threats. The Department's actions support overarching U.S. Government 
strategies, such as the Strategy to Counter ISIL, which includes a 
specific counter-messaging line of effort.
    A critical DOD influence activity is the employment of Military 
Information Support Teams to work with U.S. Embassy country teams and 
partner nations' militaries in support of Combatant Commanders' 
objectives. In these activities, the Department uses the most 
appropriate technology based upon assessments of common mediums for a 
target audience.
    The main challenge today is the size and pace of communications in 
social media, as the information environment has moved beyond static 
websites to instantaneously accessible social media.
    A recently completed Joint Staff Capability Based Assessment 
identified the challenges to influencing adversary and adversary-
related audiences in a social media-dominated internet environment. The 
study outlined requirements for increasing DOD's capability, and 
directed USSOCOM to develop solutions within its Military Information 
Support Operations (MISO) force. As we identify, develop and 
demonstrate the effectiveness of new concepts and tools to achieve 
influence effects, we will continue the dialogue with the Committee.
    Mr. Wilson. What role will SOF play in Afghanistan as we withdraw 
forces, and beyond 2015? Can you outline for the committee any 
resourcing concerns if high numbers of SOF are required? Can you 
provide an update on some of the options being discussed and how you 
are planning for those options?
    Secretary Lumpkin. Over the next 18 months, U.S. SOF will continue 
prosecuting the counterterrorism mission against the remnants of AQ and 
other terrorists who threaten our interests and our people. U.S. SOF 
will also as contribute to the train, advise, and assist mission with 
the Afghan National Defense and Security Forces. Through these efforts, 
our aim is to build durable gains that will contribute to a robust, 
enduring counterterrorism partnership with the Afghans. There are 
approximately 2,000 U.S. SOF in Afghanistan. This force level will be 
maintained through 2015. As the President stated during President 
Ghani's visit to the U.S in March, the specific trajectory of the 2016 
drawdown will be established later this year. We are currently 
reviewing potential SOF requirements for 2016 and in 2017. As part of 
this review, I will work with the Joint Staff and our military 
commanders to determine future SOF requirements in Afghanistan.
    Mr. Wilson. The fiscal year 2016 budget request continues growth 
for SOCOM to more that 69,900 personnel. With declining budgets, how 
will you ensure that this force will not become hollow? How will you 
ensure we are not choosing quantity over quality?
    Secretary Lumpkin. USSOCOM's end strength at approximately 70K 
represents a balanced force to meet special operations requirements. We 
will not have under-manned or under-equipped units at the FY16 budget 
request level of funding. However, at the BCA level of funding, we 
might have to make reductions depending on the amount of OCO available, 
but we will maintain a balanced force. We continually review this 
through USSOCOM readiness reports and during our annual DOD Program 
Budget Review (PBR). We will continue to apply rigorous selection 
criteria for induction of members into SOF in order to maintain quality 
capabilities.
    Mr. Wilson. Are you concerned that cuts being made to the Services 
could impact our special operations capabilities? Please outline your 
largest concerns in this area and discuss what is being done to 
minimize risk.
    Secretary Lumpkin. Yes, I am concerned over Service reductions 
because of the significant Service-provided capabilities that support 
Special Operations Forces (SOF), especially in Intelligence, 
Surveillance, and Reconnaissance (ISR), tactical fixed and rotary-wing 
lift, combat service support, and maritime platforms. Services are 
determining impacts if Budget Control Act (BCA) level of funding 
becomes a reality, but these impacts are still being evaluated. Any 
reductions in Service budgets will require reliance on Overseas 
Contingency Operations (OCO) funds in order for SOF to maintain 
adequate readiness. SOF readiness is directly linked to and dependent 
on Service readiness support for training ranges, training facilities, 
and service common equipment maintenance schedules--especially at depot 
level. In addition, SOF is dependent on the Services for modernization 
schedules. One of my greatest concerns is that the A/MC-130J 
recapitalization schedule may be delayed if Air Force funding is 
reduced. Another concern is that maritime platforms to support SOF may 
not be available if the Navy budget is reduced. This could require 
USSOCOM to contract for additional leased vessels. Finally, I have 
significant reservations that SOF will have adequate ISR support 
available if Air Force funding is reduced.
    Mr. Wilson. How are the roles of women in SOF changing? Can you 
outline for the committee on SOCOM plans for assigning women in 
previously closed positions?
    Secretary Lumpkin. (1) Today, women serve in a wide variety of 
Special Operations career fields such as Civil Affairs, Psychological 
Operations, and Air Force Special Operations aviation. As a requirement 
of the Women in Service Review (WISR), USSOCOM Service Components are 
reviewing and validating standards for SOF occupational specialties. 
Once these standards are implemented, those who are best qualified will 
serve--including women.
    USSOCOM has made significant progress integrating women into 
previously closed positions and units. Most of this progress has 
occurred in the U.S. Army Special Operations Command component, because 
of a previous policy preventing women from serving below the brigade 
level in combat arms. The 160th Special Operations Aviation Regiment 
(SOAR) is now open to women--all pilot, crew chief, and enabler 
positions opened as of July 23, 2014. The one exception is the Army's 
Fire Support Specialist Military Occupational Specialty positions that 
are still closed by the Army, pending a review. The first two female 
pilots graduated from the 160th SOAR Selection and Assessment program 
in September and November 2014, and the first female crew chief 
graduated from the U.S. Army Special Operations Aviation training 
program in December 2014.
    Congress also approved our latest notification packet on November 
18, 2014, to open enabler positions down to battalion level in 1st 
Special Forces Command and the Special Warfare Center and School.
    (2) USSOCOM is conducting the WISR effort in three phases. The 
first phase involved a thorough Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, Facilities, and Policy 
(DOTMLFP-P) analyses and was completed in the spring of 2014. The 
second phase was a series of cultural and sociological studies of unit 
and social cohesion and combat effectiveness of SOF tactical units if 
females were integrated. These studies are currently under final 
review. The third phase is training standards validation and is 
currently underway. Each service component is analyzing its training 
standards to ensure they accurately reflect occupational/mission 
requirements. Once validated, these standards will be gender-neutral. 
This summer, the USSOCOM commander will collaborate with the services 
in order to decide the best way forward for the SOCOM enterprise. His 
recommendation will go forward to the Chairman of the Joint Chiefs of 
Staff in late September of 2015 and ultimately to the Secretary of 
Defense in advance of a January 2016 deadline.
    Mr. Wilson. What does SOF expect to divest--or get rid of--in the 
FY16 budget request and for the next few years? Without divestitures or 
reductions in some areas, how will you ensure that we are not building 
a hollow force that we cannot afford?
    Secretary Lumpkin. In each program budget cycle, the Department 
conducts extensive reviews of current and new capability requirements. 
As part of this analysis, it is determined what programs can be 
divested or reduced in order to support any new initiatives or meet 
emerging threats or trends. We saw this most clearly during the FY15 
budget review and made some difficult decisions that will carry forward 
through FY 2016. For example, in FY2015 and FY2016, USSOCOM will divest 
some programmed growth in Combat Support, Combat Service Support, and 
Civil Affairs. In addition, in FY2015 and FY2016 we restructured active 
component Army Special Forces Groups to realign manpower and force 
structure to more effectively meet the challenges of a changing 
security environment. We also are divesting older platforms such as the 
MC-130P and AC-130H that will be replaced with newer, more capable 
platforms (MC-130J and AC-130J). Finally, we will continue to maintain 
a balanced force and the FY16 budget request support that.
    Mr. Wilson. Special Operations Forces and the Intelligence 
Community have experienced an unprecedented integration of both 
operational and analytical activities. SOCOM has also considerably 
expanded its funding of intelligence capabilities and activities. While 
details are classified--can you discuss this integration and are there 
any concerns? Can you discuss how the Department conducts appropriate 
oversight of these sensitive activities?
    Secretary Lumpkin. We provide oversight of sensitive activities in 
concert with OUSD(I) and the Director of Intelligence Oversight in 
operational, resource, and acquisition processes. We are continuing to 
work to strengthen the oversight of those processes. For example, 
working with OUSD(I), we provide a Congressional report each quarter 
that provides detailed information and updates on these activities. 
This year we are working closely in conjunction with OUSD(I) to 
strengthen that process.
    During the Department's Program Budget Review process, we work 
closely with USSOCOM, OUSD(I) and OUSD(AT&L) to ensure that our efforts 
complement each other and avoid redundancy or unnecessary duplication. 
We are also in the process of identifying gaps and strengthening the 
SOF requirements process with Joint Staff and OUSD(I).
    Details of these oversight processes will be found in the upcoming 
report by the Department on USSOCOM Intelligence in response to Section 
1625 of the FY15 NDAA.
    Mr. Wilson. Looking across the globe and the considering the threat 
of transnational terrorism--what are your largest concerns? Where are 
we assuming risk in our current strategies? Are we postured to counter 
these threats?
    Secretary Lumpkin. Since the 2001 attacks we have made considerable 
gains against al-Qa'ida and its affiliates around the world, and there 
are continuous efforts to disrupt imminent threats to the United 
States. Nevertheless, the combination of poor governance and the 
resilience of ideologies that promote violence have allowed for the 
continuous recruitment of fighters and supporters. This, in turn, has 
contributed to political turmoil and deteriorating security conditions 
in parts of the Middle East and Africa. Terrorist groups continue to 
exploit these conditions to establish sanctuaries, recruit fighters, 
and plot attacks against the United States, our allies, and partners.
    In addition to the emergence of new threats in a rapidly changing 
security environment, I remain concerned by the ideological appeal of 
terrorist groups to certain segments of society in their local areas 
and abroad. Defeating these threats will require the efforts of many 
parts of our government and the international community. Our current 
strategies ensure we do so by aligning military activities, which 
depend on continued investments in capabilities, with the efforts of 
our inter-agency and foreign government partners in law enforcement, 
intelligence, diplomatic, military, capacity building, and homeland 
security.
    Mr. Wilson. Do our forces and Geographic Combatant Commanders have 
the authorities they need to mitigate current and future transnational 
terrorist threats? What changes would you recommend, including 
potential changes to the AUMF?
    Secretary Lumpkin. While we have authorities to achieve our counter 
terrorism objectives, the Department continuously reviews existing 
authorities and resources to ensure we are postured to address emergent 
threats in a rapidly changing security environment. For instance, the 
emergence of the Islamic State in Iraq and the Levant (ISIL) as a 
regional and transnational threat prompted the President to seek a 
bipartisan Authorization for the Use of Military Force (AUMF) 
specifically tailored to address ISIL. We continue support revisions 
and an eventual repeal of the 2001 AUMF, but believe our focus and 
priority is on securing passage of an ISIL-specific AUMF.
    Mr. Wilson. Do our Special Operations Forces have all of the 
authorities they need to counter the influence of Russian actions and 
aggression in Eastern Europe, or Iranian influence in the Middle East? 
What specific role do you see Special Operations playing in this area?
    Secretary Lumpkin. Our forces have the authorities necessary to 
carry out their assigned missions. We constantly reevaluate our 
authorities given the dynamic threat environment. Generally, in the 
context of countering the Russian and Iranian influence within their 
respective regions, Special Operations Forces (SOF) could work within a 
larger whole of government approach to bolster our allies and partners 
by playing key roles in conducting security force assistance, and 
building the capacity of our partners to resist such aggression. 
Moreover, SOF are essential in helping counter the negative narratives 
and propaganda of an adversary through information operations, 
primarily through Military Information Support Teams. If we determine 
we have an authority gap, we will work with Congress to identify 
possible solutions.
    Mr. Wilson. A great deal has been written and said about the 
relationship between Special Operations Forces and the CIA. What is 
your opinion of how the CIA and SOF should share responsibilities that 
interlock and overlap, given respective strengths and weaknesses? What 
coordination role does your office (Special Operations/Low Intensity 
Conflict) play in helping to coordinate and de-conflict CIA-DOD 
operations and activities? What are some areas of improvement?
    Secretary Lumpkin. With respect to our counterterrorism plans, 
policies, and operations, the CIA and DOD work in concert within our 
distinct statutory authorities and policy guidance where applicable, to 
improve the whole of government approach in attaining national 
objectives. Each organization possesses specific strengths that can be 
leveraged to support other organizations. Regular staff interaction 
facilitates the development of solutions to the full suite of issues 
related to counterterrorism plans, policies, and operations.
    SO/LIC conducts oversight of the Department's special operations 
activities with an understanding that these activities should be 
complementary, but not duplicative, of efforts taken by the CIA. The 
division of responsibility varies by issue and the dynamics of 
particular areas of operations; but the Department has the right people 
and policies in place to ensure intelligence and military operations 
reinforce each other.
    The Department continues to seek improvement of cooperation and 
coordination through increased communication and information sharing. 
Additional information sharing and clarity on responsibilities and 
operations reduces redundancy to preserve our precious resources.
    Mr. Wilson. What changes can you recommend to the present set of 
Security Force Assistance authorities such as 1206 and Global Security 
Contingency Fund? Are these the right types of authorities to satisfy 
future Geographic Combatant Commander requirements to develop partner 
nation capabilities?
    Secretary Lumpkin. I believe our current Security Force Assistance 
(SFA) authorities are appropriate for achieving the limited set of 
objectives for which they were designed. The 1206 ``train and equip'' 
program, for example, has enabled the Department of Defense to provide 
partner nations capabilities to conduct counterterrorism and 
stabilization operations. However, we continue to look at ways to 
accelerate current material solutions to our partnership capacity 
efforts, which sometimes limit Geographic Combatant Commanders' ability 
to act expeditiously.
    The Counterterrorism Partnerships Fund (CTPF) has provided 
additional resources and flexibility, and the additional $2.1 billion 
included in the President's FY16 budget request would enable us to 
satisfy foreseeable Geographical Combatant Command requirements 
appropriate to the CTPF mission-set.
    I would point out, however, that both 1206 and the Global Security 
Contingency Fund (GSCF) are tailored in their scope, and there may be 
additional areas in which security force assistance is needed that 1206 
and GSCF do not adequately address. As you know, my responsibilities 
are focused on special operations and low intensity conflict; other 
elements of the Department are better suited to respond to the adequacy 
of SFA authorities for the full array of partner nation requirements.
    Mr. Wilson. A recent report on Special Operations Forces by the 
Council on Foreign Relations suggested that, ``the Office of the 
Assistant Secretary for Special Operations/Low Intensity Conflict has 
difficulty fully providing civilian oversight of U.S. Special 
Operations Command's policy and resources as directed by law.'' Do you 
agree with this assessment? Can you outline for the committee how that 
office conducts oversight of policy and resources of SOCOM?
    Secretary Lumpkin. I do not agree with that assertion. We are able 
to meet our statutory oversight responsibilities and we do so. My 
office has policy oversight of USSOCOM budget and resourcing, in 
accordance with well-established Department processes. I have a 
dedicated directorate within SOLIC to perform these functions. I also 
leverage the subject matter expertise of the Joint Staff and relevant 
offices within the Office of the Secretary of Defense, such as experts 
in personnel, intelligence, and acquisition matters, to assist me. 
Moreover, I recognize that many other organizations within the 
Department have an active role to play in the oversight of SOCOM. To 
that end, I created and chair the Special Operations Policy Oversight 
Committee (SOPOC), which brings together all SOCOM stakeholders 
periodically to address key contemporary issues. I am pleased to say 
that the SOPOC has received strong support and participation from the 
service secretaries, relevant OSD offices, the Joint Staff, and SOCOM 
leaders, and has helped me to continue to meet my statutory 
obligations.
    Mr. Wilson. Many of our potential adversaries have become very 
adept at manipulating the information environment to radicalize, 
recruit and gain support their cause. That requires a robust, concerted 
and strategic effort to counter those messages and kill the ideas that 
drive their extremist movement movements. Do we have a strategy for 
attacking adversarial messaging and propaganda? What tools do you have 
at your disposal to counter those sorts of messages? Where do you see 
gaps in our capabilities that you think we should be trying to address?
    General Votel. USSOCOM has not developed its own counter-ISIL 
messaging strategy; it supports activities such as Line of Effort (LOE) 
#6 ``Expose ISIL's True Nature'' of the U.S. Government's (USG) 
strategy developed by the National Security Council Staff. U.S. Special 
Operations Command (USSOCOM) has provided influence planning expertise 
to the Department of State Bureau of Public Affairs and Public 
Diplomacy and the National Counter Terrorism Center, which co-chair the 
implementation of LOE #6.
    Congress has expressed concern with DOD engaging violent extremist 
propaganda on the Internet, except in very limited ways. They tend to 
view the Internet as a strategic platform and efforts to influence 
civilians outside an area of conflict as Public Diplomacy, the 
responsibility of the Department of State or Broadcasting Board of 
Governors. We believe there is a complimentary role for the Department 
of Defense (DOD) in this space which acknowledges the need for a 
civilian lead, but allows DOD to pursue appropriate missions, such as 
counter-recruitment and reducing the flow of foreign fighters. This can 
be done in a coordinated manner as part of the whole of government 
effort without militarizing U.S. foreign policy. An explicit directive 
from Congress outlining the necessity of DOD to engage in this space 
would greatly enhance our ability to respond.
    USSOCOM's primary tool for countering adversarial messaging is its 
Military Information Support Operations (MISO) Soldiers and various 
activities. These Special Operations Forces (SOF)trained Soldiers 
support Geographic Combatant Commands (GCC) with forces specially 
trained in using information to modify foreign audiences' behavior. 
Military Information Support Teams (MISTs) deploy to various Embassies 
around the globe to assist in the achievement of GCC Theater Campaign 
objectives as well as advance Chief of Mission goals. The current MISO 
force structure supports the persistent deployment of about 20-30 
MISTs. Additionally, MISO planners support all GCCs with the capability 
to monitor, track, analyze, and provide recommendations for the most 
effective way of engaging in the extremist debate. Other MISO 
activities include Senior Military Engagement Program (SMEP) which 
facilitates mil-to-mil engagement via digital and print magazines 
through discussion of strategic issues affecting regional partners 
within a GCC Area of Responsibility (AOR).
    Two substantial gaps exist; one has already been identified in the 
third paragraph regarding elimination of DOD permissions to engage 
online to counter violent extremists' narratives and recruitment. 
Another gap exists in the MISO community's ability to operate on social 
media and the Internet, due to a lack of organic capability. This 
shortfall, and the requirement to integrate indigenous language and 
cultural capability, has necessitated the use of contractors. DOD will 
reduce, but not eliminate, reliance on contracted capabilities through 
its current efforts to update doctrine, expand training and implement 
technical and material solutions to improve the Department's ability to 
effectively operate in the social media and broader online information 
space.
    Finally, the ability to rapidly respond to adversarial messaging 
and propaganda, particularly with offensive cyberspace operations to 
deny, disrupt, degrade or corrupt those messages, requires an Execute 
Order (EXORD) and is limited by current U.S. government policies. The 
review and approval process for conducting offensive cyberspace 
operations is lengthy, time consuming and held at the highest levels of 
government. However, a rapid response is frequently required in order 
to effectively counter the message because cyber targets can be 
fleeting, access is dynamic, and attribution can be difficult to 
determine. Additionally, international standards and laws do not exist 
for defining sovereignty in cyberspace.
    Mr. Wilson. What role will SOF play in Afghanistan as we withdraw 
forces, and beyond 2015?
    General Votel. Aligned with Commander Resolute Support's (COM RS) 
functionally-based Security Force Assistance (SFA) framework, U.S. and 
Coalition Special Operations Forces (SOF) will continue to advise 
Afghan Special Security Force (ASSF) partners on critical enablers like 
aviation, logistics, intelligence, and command and control. This 
functional framework is designed to facilitate a coordinated (Afghan 
and Coalition) problem solving effort and enduring relationships. While 
the overall force draws down, SOF will remain relatively robust in 
order to advise and ensure sustainability of the ASSF.
    The NATO Special Operations Component Command-Afghanistan/Special 
Operations Joint Task Force-Afghanistan(NSOCC-A/SOJTF-A) has five (5) 
Special Operations Advisory Groups (SOAGs) focused on mentoring and 
advising our ASSF partners to ensure they can command, control, 
maintain, and sustain their tactical units spread across the country. 
These special military and police units are our most capable partners 
in the Counterterrorism (CT) fight. In order to ensure our ASSF 
partners continue to take the fight to our enemies, U.S. SOF must 
continue advising at the tactical level even as we draw down our 
forces. We must show our continued commitment to Afghan security 
efforts in order to maintain the mutually beneficial relationships we 
need to meet U.S. objectives in the region.
    Mr. Wilson. Can you outline for the committee any resourcing 
concerns if high numbers of SOF are required?
    General Votel. There are very limited resourcing concerns from the 
SOF/Major Force Program (MFP) 11 perspective depending on how high the 
SOF numbers go. The only relevant concern is when the number of SOF 
supporting this effort increases to the extent that the amplified 
competition for resources in terms of personnel, equipment, and funding 
is allocated to support other global priorities.
    Another concern specifically applies to equipment. Current 
resourcing projections include funding to continue retrograde, 
redeployment, and material reduction of SOF peculiar equipment. There 
may be a need for additional resourcing if we are required to send 
equipment back into theater to support higher SOF numbers. The concern 
increases over time in 2016 as a continued reduction in personnel and 
equipment would require additional shipping of equipment in an 
environment with limited reception and distribution capacity and 
capability.
    More importantly would be a continued conventional force support to 
SOF. The greatest concern going forward is ensuring adequate resourcing 
and necessary authorities exist to support all of the non-SOF peculiar 
requirements in theater generated by a larger number of SOF such as 
basing, fuel and ammunition.
    Mr. Wilson. Can you provide an update on some of the options being 
discussed and how you are planning for those options?
    General Votel. The ASSF will be the central mechanism to ensuring 
``relative stability'' over the next few years. Afghan Special Security 
Forces (ASSF) formations are already conducting unilateral security 
operations and are integrating across the Ministry of Defense (MOD) and 
Ministry of Interior (MOI) enterprise. However, they still require 
continued Special Operations Train, Advise and Assist (SOF TAA), 
especially in the areas of logistics and command and control. The 
Afghan Local Police (ALP), while not part of the ASSF, are integral to 
Afghanistan's enduring layered security architecture. They have proven 
to be the Taliban's most formidable obstacle to regaining influence and 
power, and merit continued SOF TAA at the ALP headquarters level. 
Several ASSF development efforts will need to extend beyond 2016. Three 
specific programs that warrant extension due to the critical/unique 
capabilities they provide: the Special Mission Wing (SMW) PC-12 and Mi-
17 program, the ASSF Intelligence Enterprise, and Ktah Khas (KKA).
    The continued development of these command and control mechanisms 
is critical and will require continued support at the ministerial and 
operational levels to ensure appropriate support to and utilization of 
ASSF. By the end of 2016, we expect to make significant improvements to 
the enabling functions of the ASSF, particularly their abilities to 
force generate; sustain the force; plan, resource, and execute 
effective security campaigns; and harness intelligence capabilities and 
processes. This is critical to U.S. interests as we will be reliant 
upon ASSF to conduct missions to combat terrorists in Afghanistan and 
deny them safe haven.
    Thwarting the Taliban is not an ANSF mission alone; this will 
continue to be a collective effort. Government of the Islamic Republic 
of Afghanistan (GIRoA) must demonstrate to the Afghan people that it is 
the clear cut, better governing option. The Taliban can only be 
decisively defeated if their popular support is comprehensively eroded 
away. Therefore, we will continue working with State Department, USAID, 
other U.S. Government (USG) and coalition partners in Afghanistan to 
legitimize GIRoA.
    Mr. Wilson. The fiscal year 2016 budget request continues growth 
for SOCOM to more that 69,900 personnel. With declining budgets, how 
will you ensure that this force will not become hollow? How will you 
ensure we are not choosing quantity over quality?
    General Votel. USSOCOM's end strength at approximately 70K 
represents a balanced force to meet special operations requirements. We 
will not have under-manned or under-equipped units at the FY16 budget 
request level of funding. However, at the Budget Control Act (BCA) 
level of funding, we might have to make some reductions depending on 
the amount of OCO available, but we will maintain a balanced force. We 
continually review this through USSOCOM readiness reports and during 
the annual Department Program Budget Review (PBR). We will continue to 
apply rigorous selection criteria for induction of members into Special 
Operations Forces (SOF) to maintain quality personnel.
    Mr. Wilson. Are you concerned that cuts being made to the Services 
could impact our special operations capabilities? Please outline your 
largest concerns in this area and discuss what is being done to 
minimize risk.
    General Votel. There are many potential impacts that would affect 
Special Operations Capabilities including personnel, training, 
schooling, equipment and deployments. Specific examples follow:
    Naval Special Warfare (NSW): There will be reductions in service 
provided by air mobility. Budget reductions will impact NSW's ability 
to conduct Seal Deliver Vehicle (SDV) training at the unit level and 
certification-to-deploy training at off-island training sites. Training 
at these sites is required as a result of limited on-island training in 
Hawaii and the unavailability of cold-water training environments to 
certify a SDV Platoon in accordance with mission essential tasks. NSW 
is currently conducting MFP-11 FYDP planning to address long-term 
reductions.
    U.S. Army Special Operations Command (USASOC): A shortfall in 
Military Training Specific Allotment (MTSA) will curtail mandatory 
education and adversely impact the morale, professional development and 
career advancement of our officers and enlisted force. USASOC will not 
be able to meet the requirements to train Army Special Forces Soldiers 
as directed by Department of the Army. Duty position-required training 
and TDY en-route to meet readiness requirements will not be met. 
Authorized training to the Office of the Deputy Chief of Staff for 
Operations, HQDA will cease due to the reductions. USASOC will compete 
for available resources during HQDA budget office mid-year review data 
call.
    Air Force Special Operations Command (AFSOC): At the end of FY13 
and beginning of FY14 the furlough and sequestration actions had some 
measurable negative affect on AFSOC C-130 aircraft program. Because of 
that, AFSOC C-130 aircrafts were being pushed 45-60 days behind at the 
depot for maintenance, which is past the 16 month requirement and the 
deliveries were late by 30 days. The lateness continues because the 
maintainers are not allowed to work overtime due to no funding.
    Marine Corps Special Operations Command (MARSOC): The unforeseen 
impacts would affect the use of the USMC ranges due to lack of funding 
for the range operators and support personnel.
    Rotary Wing Support: In recent years, U.S. Navy (USN) provided 
dedicated Rotary Wing support to Special Operations Forces (SOF) 
through a USN-SOCOM memorandum of Agreement (MOA) that provided for the 
employment of two Navy Reserve H-60 squadrons. Specifically, the 
squadrons supported both our Components and Theater Special Operations 
Command (TSOCs) in operational and training support. As a result of 
Service budget cuts concerning these two Reserve Squadrons, the Navy 
requested no funds for FY-16, with divestiture to be completed by the 
end of the fiscal year.
    Contract support to SOF enterprise. Contracting support is one of 
the key logistics enablers that SOF relies on the Services to provide. 
Due to the force reductions tied to the current budget reductions the 
Army is targeting to increase the number of Soldiers filling 
Contracting Military Occupation Specialties (MOSs). Contracting support 
is a critical operational need that is expected to grow with Campaign 
Plan-Global Special Operations (CP-GSO) expanded persistent presence in 
support of Geographic Combatant Commands' SOF requirements.
    Mr. Wilson. How are the roles of women in SOF changing? Can you 
outline for the committee on SOCOM plans for assigning women in 
previously closed positions?
    General Votel. (1) Women serve in a wide variety of operations and 
in career fields such as Civil Affairs, Military Information Support 
Operations (MISO), and Air Force Special Operations aviation. As part 
of the Women in Service Review (WISR), USSOCOM Components are reviewing 
and validating standards of SOF occupational specialties to ensure they 
are operationally relevant, occupational specific and applied in a 
gender-neutral manner. Once these standards are implemented, those who 
are best qualified will serve--including women.
    USSOCOM has made significant progress integrating women into 
previously closed positions and units. Since Secretary of Defense 
(SECDEF) rescinded the Direct Ground Combat Assignment Rule (DGCAR) in 
January 2013, USSOCOM, in coordination with the Services, has opened 
over 7000 position to include the 160th Special Operations Aviation 
Regiment (SOAR). Most of this progress has occurred in the U.S. Army 
Special Operations Command component because of DCAR which prevented 
women from serving below the brigade level in combat arms and Service 
assignment policies. Army Directive 2015-08 (Expanding Positions in 
Open Occupations for the Assignment of Female Soldiers within U.S. Army 
Special Operations Command) opened the majority of the positions within 
U.S. Army Special Operations Command (USASOC). The entire 160th Special 
Operations Aviation Regiment is now open--all pilot, crew chief, and 
enabler positions opened as of July 23, 2014 (except 13F which is still 
a closed MOS in the Army). Currently there are three female pilots and 
one female crew chief serving in the 160th SOAR.
    Congress approved our latest notification packet on November 18, 
2014 to open enabler positions down to battalion level in 1st Special 
Forces Command and the Special Warfare Center and School. The remaining 
positions closed to women in SOF are in closed occupations such as 
SEAL, Special Forces (18 series), the 75th Ranger Regiment, and enabler 
positions attached to SOF tactical units or that require an additional 
skill identifier from a closed school such as Army Ranger School. (2) 
USSOCOM is conducting the WISR effort in three phases. The first phase 
involved a thorough Doctrine, Organization, Training, Materiel, 
Leadership, Personnel, Facilities and Policy (DOTMLFP-P) analysis and 
was completed in the spring of 2014. The second phase consists of 
cultural and sociological studies focusing on unit, social and task 
cohesion in SOF tactical units. The studies were conducted by RAND, 
Joint Special Operations University and Kansas University. The third 
phase is training standards validation and is currently underway. Each 
service component analyzes training standards to ensure they accurately 
reflect occupational/mission requirements, which includes third party 
support (Naval Health and Research Center, Office of Personnel 
Management) to provide non-biased job analysis and scientific data to 
ensure standards are operationally valid and occupational specific. 
Once validated, the standards will be implemented in a gender neutral 
manner. Lastly, the USSOCOM commander will collaborate with the 
services in order to decide the best way forward for the SOCOM 
enterprise. His recommendation will go forward to the SECDEF, in 
coordination with the Services, in September 2015. Assignment of women 
to newly opened positions will be accomplished through coordination 
with the Services and in accordance with Service assignment policies 
and procedures.
    Mr. Wilson. What does SOF expect to divest--or get rid of--in the 
FY16 budget request and for the next few years? Without divestitures or 
reductions in some areas, how will you ensure that we are not building 
a hollow force that we cannot afford?
    General Votel. United States Special Operations Command remains 
committed to maintaining a balanced, capable force. Capability 
requirements, both current and new, are subjected to comprehensive 
reviews and analysis. As part of these reviews, it is determined what 
programs can be divested or reduced in order to support any new 
initiative. In addition to exploring potential divestitures or 
reductions, we are also recapitalizing older platforms such as the MC-
130P and AC-130H in a one-for-one replacement with newer, more capable 
platforms (MC-130J and AC-130J). Other reductions and divestitures from 
previous years will be continue to be evident in the FY16 budget 
request. These include the planned divestiture of MQ-1 Predators from 
24-10 by the end of FY16, the reduction of C-145A (M-28) platforms from 
16 to 5 while retaining pilot proficiency and currency at the Aviation 
Foreign Internal Defense (AvFID) squadrons, and continuing realignment 
of U.S. Army Special Operations Command (USASOC) forces from 
Operational Detachment Alphas (ODA) to smaller Operational Detachment 
Golfs (ODG) and supporting detachments to better meet evolving 
Geographical Combatant Command (GCC) requirements. These 
recapitalizations, divestitures, reductions and realignments in the 
FY16 budget request ensure we continue to maintain a capable and 
balanced force ready to protect the Nation's vital interests.
    Mr. Wilson. Special Operations Forces and the Intelligence 
Community have experienced an unprecedented integration of both 
operational and analytical activities. SOCOM has also considerably 
expanded its funding of intelligence capabilities and activities. While 
details are classified--can you discuss this integration and are there 
any concerns? Can you discuss how the Department conducts appropriate 
oversight of these sensitive activities?
    General Votel. At current, we do not have concerns with the level 
of integration between Special Operations Forces (SOF) and the 
intelligence community (IC). Our interagency relationships are strong 
and we, in the SOF community, are always interested in opportunities to 
improve communication, coordination, collaboration, and integration 
with our IC partners.
    USSOCOM and the greater SOF enterprise places an emphasis on 
communicating, coordinating, collaborating, and, where applicable, 
integrating with our Intelligence Community partners both in our 
operational and analytical activities. These partnerships allow us to 
share the burden of managing conflicts and enhancing capabilities that 
allow us all to formulate and implement a better whole-of-government 
response.
    At the operational to strategic level, the preponderance of 
intelligence consumed by Special Operations units is collected, 
processed, exploited and disseminated by other U.S. Government (USG)/
Department of Defense (DOD) elements across the IC. SOF intelligence 
analysts communicate and coordinate daily with IC partners on all 
aspects of intelligence collection, analysis, and production to 
mitigate and avoid duplication of effort and ensure compliance with 
established IC directives.
    Additionally, to further reduce duplicity and redundancy, USSOCOM 
maintains a team of interagency liaisons throughout the SOF enterprise 
and provides SOF liaisons to many interagency headquarters. These 
relationships help facilitate better de-confliction and synchronization 
of intelligence in support of SOF operations, and assists in providing 
situational awareness of overseas events and activities. The main focus 
is to ensure the most efficient and effective use of intelligence 
professionals, systems, and resources in order to deliver timely 
information to SOF.
    Only when the pre-existing IC data is exhausted, the intelligence 
and operational requirements are SOF niche, or compressed timelines 
associated with special operations will SOF solely rely on our 
dedicated tactical organic collection and analysis. However, even in 
these cases, SOF intelligence operations and analysis is coordinated 
fully with the necessary IC partners.
    Oversight of SOF intelligence and intelligence-related capabilities 
is shared by the Under Secretary of Defense for Intelligence (USD(I)), 
the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict (ASD(SO/LIC)), and the recently re-designated 
Department of Defense Senior Intelligence Oversight Official (DOD 
SIOO).
    Federal law and Executive Order (EO) assigned specific oversight 
requirements to the USD(I), the ASD(SO/LIC), and the SIOO regarding the 
employment of SOF. These requirements are amplified by DOD policies. 
The below chart (Figure 1) identifies both policy and funding 
responsibilities.
 
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Because the House Rule X(j)(1)(c) definition of intelligence 
activities includes ``clandestine activities'' and spans both 
intelligence and Special Operations traditional military sensitive 
activities, the USD(I), the ASD(SO/LIC), and the SIOO each exercise 
oversight of special operations organizations based on the activities 
that these operational elements conduct.
    The following chart outlines the key questions that enables USD(I), 
ASD(SO/LIC), and SIOO to understand the activity and how the elements 
were funded and developed. This chart (Figure 2) also frames how 
USD(I), ASD(SO/LIC), and SIOO cooperate to ensure oversight between all 
three entities.

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 Mr. Wilson. Given the nature of diminishing resources and 
budget constraints, what is the current and future status of the 
Command's Global SOF Network initiative?
    General Votel. In an era of constrained budgets, pursuing an 
international network approach is more important than ever. When 
Admiral McRaven initially described his vision for a ``global SOF 
network'' in January 2013, he based it on analysis of national 
strategic guidance, and it encompassed three distinct objectives:
    --  Strengthen the global network of SOF, U.S. government partners, 
and partner nations
    --  Provide Geographic Combatant Commanders (GCCs) and Chiefs of 
Mission with improved special operations capacity, and
    --  Align structures, processes, and authorities to enable that 
network.
    USSOCOM described this network approach and the function of each 
node in a Concept of Operations (CONOPS), which was endorsed by the 
Joint Requirements Oversight Council (JROC) in October 2013.
    As national security challenges and threats are increasingly global 
and interconnected, USSOCOM continues to prioritize a globally 
networked approach to addressing them. That is why in my posture 
statement designated ``building relationships'' as one of my top 
priorities. While moving away from the terminology ``global SOF 
network,'' USSOCOM is continuing to build relationships and strengthen 
its international network, through sustained security cooperation, 
expanded communication architectures and liaison activities.
    Below are some updates on initiatives related to building 
relationships. These initiatives do not entail requests for additional 
resources, but rather shift existing resources. At its core, the 
international approach is a way of doing business.
    <bullet>  USSOCOM now has SOF representatives from 13 different 
nations working at its headquarters. Liaison/exchange positions are 
established upon completion of a Memorandum of Agreement between the 
United States and each individual country, as authorized by the Office 
of the Secretary of Defense for Policy. USSOCOM currently hosts special 
operations international liaison and exchange officers from: Australia, 
Canada, Denmark, France, Germany, Great Britain, Jordan, Lithuania, the 
Netherlands, New Zealand, Norway, Spain, and Sweden. Officers from 
Italy, Singapore, and Poland are expected to be assigned within the 
coming months.
    <bullet>  These partner nation SOF representatives work in a 
section of the headquarters specifically modified to ensure security of 
information while enabling multi-national collaboration, the J3-
International (J3-I) Division. The J3-I offices are collocated within 
the headquarters in close proximity to other J3 office spaces. The 
space was renovated in 2014 to ensure that there was a purpose-built 
area in full compliance with applicable U.S. law, policy, and 
intelligence community directives for international coordination.
    <bullet>  As a complement to integrating SOF representatives into 
USSOCOM headquarters, USSOCOM assigns U.S. officers as Special 
Operations Liaison Officers (SOLOs) to key SOF partners across the 
globe. Currently, there are 15 SOLOs assigned to U.S. Embassies abroad 
with locations in every geographic area of responsibility. The intent 
of the SOLO program is to maintain enduring presence with select 
partner nation SOF in order to support the development of key SOF 
partners, prepare for future contingencies, and build mutually 
beneficial relationships in support of Geographic Combatant Command 
priorities.
    <bullet>  A communications infrastructure is imperative in 
supporting the international network and partnership initiatives. 
USSOCOM is capitalizing on the capabilities provided by the 
Undersecretary of Defense for Intelligence (USD-I) through its U.S. 
Battlefield Information Collaboration and Exploitation System (US 
BICES) for SECRET Releasable collaboration and the Defense Information 
Support Agency's (DISA) All Partner Access Network (APAN) for 
unclassified collaboration. Enterprise systems like APAN and BICES 
ensure broad collaboration and information exchange capabilities are 
available to USSOCOM and accredited partner nations to enable the 
global network approach to function effectively. NOTE: Additional 
unclassified capabilities are required to address USSOCOM and GCC's 
requirements to collaborate and communicate sensitive, but unclassified 
information at an enterprise level. USSOCOM is actively working through 
multiple OSD agencies to ensure these requirements are met in a timely 
manner.
    These initiatives have demonstrated value and return on investment, 
most recently exemplified by the rapid employment of partner nation SOF 
to support U.S. Central Command's Operation INHERENT RESOLVE.
    Through this networked approach, USSOCOM can support partners in a 
region where they may be better positioned to achieve shared desired 
outcomes, due to historic, political, or geographic relationships. By 
enabling and working with SOF partners, USSOCOM can share the burden of 
managing conflicts and work together to increase capabilities of 
regional partners, to provide security solutions to meet threats at 
their origin.
    This is the network approach in action--providing national 
decision-makers the opportunity to pursue multinational, tailored 
efforts that best meet the specific problem set, context, and 
preference of regional partners. Not to mention, this approach enables 
the U.S. to collectively shoulder resource requirements with partners 
in an era of constrained defense budgets.
    Mr. Wilson. The February 2013 Unified Campaign Plan assigned 
theater special operations commands as sub-unified commands to SOCOM 
rather than the geographic combatant commands. Please explain why the 
UCP was changed. a. Do you plan to expand the theater special-
operations commands and, if so, how much and for what purposes? b. How 
will you coordinate future activities with the geographic combatant 
commands?
    General Votel. The proposed changes to the Unified Command Plan 
(UCP) will improve USSOCOM's ability to prioritize, deploy and balance 
global Special Operation Forces (SOF) requirements in support of the 
Geographic Combatant Commands (GCCs). It will allow USSOCOM to shift 
SOF, with the concurrence of the GCC Commanders, globally to meet 
rapidly evolving requirements.
    The UCP establishes the missions, responsibilities, and force 
structure for unified combatant commands, delineates Area of 
Responsibility (AOR) boundaries for GCCs, and specifies 
responsibilities for Functional Combatant Commands (FCCs). The UCP 
currently states ``Commander, United States Special Operations Command 
(CDRUSSOCOM) is responsible for synchronizing planning for global 
operations against terrorist networks. . . .'' The changes we seek 
broadens USSOCOM's role to include synchronizing the employment of 
global SOF operations; the proposed language reads ``CDRUSSOCOM is 
responsible for synchronizing the planning and employment of special 
operations globally, and will do so in coordination with other 
combatant commands, the Services, and, as directed, appropriate U.S. 
Government agencies.'' This change will improve our ability to 
prioritize, deploy and balance SOF requirements and will codify how we 
posture SOF to meet requirements within and across GCCs.
    The Secretary of Defense uses the ``Forces For'' Memorandum and 
Unified Command Assignment Tables to assign and allocate forces to GCCs 
and FCCs. The changes reflected in the February 11, 2013 memorandum 
formally assigned USSOCOM combatant command (COCOM) authority of the 
Theater Special Operation Commands (TSOCs) and forward stationed SOF, 
making USSOCOM responsible for the readiness and training of all SOF 
regardless of assignment location. However, having COCOM of the TSOCs 
does not change the Operational Command (OPCON) relationships between 
the GCCs and SOF assigned to their AORs. The GCCs retain OPCON 
authority of the TSOCS and remain the Supported Command with USSOCOM as 
the Supporting Command.
    To support and implement the ``Forces For'' memorandum, the 
Department transferred baseline TSOC Headquarters (HQ) resources from 
the GCC/Service Major Force Program (MFP-2) accounts to USSOCOM (MFP-
11) during the Fiscal Year (FY) 2016 budget cycle. This transfer 
included funding and manpower associated with TSOC training, mission 
support and planning, communications/IT, personnel, headquarters 
management, and command and control (C2) activities.
    USSOCOM's FY 2016 Budget Request also includes additional resource 
and manpower adjustments that will better enable the TSOCs to optimize 
their ability to address GCC requirements. Additional manpower, 
critical Command, Control, Communications, Computers, and Intelligence 
(C4I), and other operational support will improve TSOC structure, C2 
capabilities, and provide flexibility to meet emerging requirements. 
These enhancements support USSOCOM's intent to provide an equally 
capable TSOC to each GCC. Manpower adjustments include the internal 
realignment of over 800 military and civilian positions (across FY14-
20), from Headquarters USSOCOM and its Service Components, to the TSOCs 
to provide command and control and other operational support 
activities. In FY 2016, additional O&M was provided to enable these 
personnel to support the TSOC mission.
    The proposed changes to the UCP regarding USSOCOM synchronizer 
responsibilities and the assignment of COCOM authority to USSOCOM in 
the Forces For memorandum does not change USSOCOM's obligation and 
commitment to support the GCCs by providing them a SOF capabilities 
through the TSOCs. However, it does enhance USSOCOM's ability to 
support the GCCs by tailoring SOF capability and capacity of the TSOCs 
to meet the operational demands of the GCC commanders in their Area of 
Responsibility (AOR). To balance global special operation activities, 
USSOCOM is implementing a synchronization and prioritization framework 
to develop recommendations for DOD-level decisions that prioritize 
special operations, actions, and activities such that GCCs/TSOCs--who 
will be active participants in the process--understand how USSOCOM will 
address priorities for SOF; where and why USSOCOM intends to recommend 
allocation of special operation resources; and what resources GCCs can 
reasonably expect for planning.
    Mr. Wilson. U.S. Northern Command recently established Special 
Operations Command North (SOCNORTH). Please discuss how SOCOM has 
helped resource this command and how SOCOM is working with this 
particular theater special operations command (TSOC). Are there any 
issues with Special Operations Forces working within a domestic 
framework?
    General Votel. SOCOM has helped resourcing this command by:
    Total ``start-up'' funding obligated for SOCNORTH is $6.1M (MFP-2) 
and $3.8M (MFP-11) from both FY 2013 and FY 2014. Additionally, SOCOM 
has budgeted $250K in MFP-11 O&M funding to support SOCNORTH in FY15.
    The Air Force, at the behest of SOCOM, funded a $6.1M renovation 
(less C4I costs) of Hangar 104 to provide SOCNORTH an interim facility. 
SOCNORTH's anticipated move-in date is late April/early May 2015.
    USSOCOM has actively engaged with USNORTHCOM and SOCNORTH to obtain 
Air Force military construction funding for a new, permanent $58 
million operations facility. This project, requested for FY 2018, will 
support SOCNORTH's permanent bed-down at Peterson AFB, Colorado.
    SOCNORTH has been designated by Commander, USNORTHCOM as the 
supported command for all counter terrorism related activities, and 
specialized support of federal law enforcement within the USNORTHCOM 
AOR.
    SOCNORTH will support federal law enforcement agencies tasked to 
provide the capacity, expertise, and the global focus against threat 
networks supporting USNORTHCOM plans.
    SOCNORTH continues to thicken its network of partners, improving 
its understanding and building relationships, while establishing 
processes with the U.S. interagency and other partners through 
engagements and exercises.
    Mr. Wilson. Can you outline some of the more difficult advanced 
technology requirements that SOF needs in order to maintain an edge on 
the battlefield? a. As we withdraw from major combat in Afghanistan, 
will the need for non-lethal weapons and directed energy weapons 
increase? b. How are you managing to stay ahead in research and 
development while your budget in this area has steadily declined over 
the past several fiscal years? c. What role does the Combating 
Terrorism and Technical Support Office (CTTSO) play in filling SOF 
technology requirements?
    General Votel. a. The withdraw of General Purpose Forces from major 
combat in Afghanistan will not increase the need for non-lethal (NL) or 
directed energy (DE) weapons for SOF. SOF operations outside of 
declared areas of armed conflict (ODTAAC) are typically politically 
sensitive and require ultra-precision for target engagement and direct 
action. All types of NL and lethal technologies that enable ultra-
precision for SOF target engagement and direct action will be needed. 
These technologies include focused and tailored effects for kinetic 
weapons, as well as NL and DE weapons. NL weapons include a variety of 
technologies that produce specific types of target effects. DE is a 
type of weapons technology that can produce lethal or non-lethal target 
effects, depending on the DE parameters and target vulnerabilities. DE 
weapons offer the advantage of ultra-precision and rapid target 
engagement, but have significant systems engineering, platform 
integration, and operational policy challenges. NL weapons may offer 
advantages for use in politically sensitive offensive operations that 
limit or restrict the use of lethal force, or when U.S. forces, non-
combatants and/or hostages may in close proximity to enemy targets.
    b. USSOCOM will continue to leverage Service, Agency, and 
Department of Energy technology development investments, limiting Major 
Force Program Eleven (MFP-11) resources on SOF-unique development and 
system modification efforts. Through a deliberate campaign to share SOF 
capability needs, we have been able to influence and benefit greatly 
from the work already being done. For some technologies, such as 
precision munitions and DE, USSOCOM is highly reliant on larger Service 
development investments. Because of the technological challenges with 
NL and DE weapons, USSOCOM's intent is to leverage Service/Agency 
development and serve as early adaptors once the technologies and 
system engineering challenges mature.
    More emphasis for longer-range airborne, ground and maritime NL 
weapons capabilities to support offensive operations is needed to 
support SOF capability needs. More emphasis on systems engineering 
early in the development process is needed for DE weapons to make them 
more viable options for SOF. Other advanced technologies of interest to 
SOF include: advanced seekers for munitions to improve the probability 
of kill against fast, erratically maneuvering targets; non-lethal 
personnel immobilization; signature reduction technologies 
(multispectral, acoustic); strength and endurance enhancement; night 
vision; unbreakable/unjammable, encrypted, low probability to detect/
low probability of intercept communications; long-range non-lethal 
vehicle stopping; clandestine non-lethal vessel stopping; clandestine 
non-lethal equipment and facility disablement/defeat; full spectrum 
threat platform defense (aircraft, vehicle, vessel); combined effects 
weapons; advanced offensive and defensive cyber capabilities; tethered 
sensors for target detection, identification and engagement in all 
weather conditions; clandestine tagging, tracking, and locating; 
intelligence data trend detection, extraction and display; weapons of 
mass destruction render safe; chemical and biological agent defeat.
    c. The CTTSO has funded technology development projects and 
established Memoranda of Agreement with Partner Nations for technology 
development information sharing to support SOF counterterrorism (CT) 
capability needs. CTTSO plays an important role in taking operational 
needs from our SOF components and rapidly producing usable prototypes 
to help refine requirements for SOF operators. CTTSO hosts yearly 
reviews to identify user needs that are able to be addressed through 
mature technologies typically within 12-18 months. The CTTSO also 
offers a viable program to support weapons technology development for 
SOF CT operations that falls outside the criteria for the Joint NL 
Weapons Program. Recent changes in DOD NL weapons policy limits the NL 
weapons definition to only weapons that have immediate, predictable 
target effects that are intended to be relatively reversible and return 
the target to its pre-engagement function. CTTSO offers USSOCOM an 
avenue to pursue legal, treaty-compliant weapons technologies that are 
neither intended to produce relatively reversible nor lethal target 
effects.
    Mr. Wilson. Can you update the committee on SOCOM's intelligence 
functions, requirements, and initiatives? What specific intelligence, 
surveillance, and reconnaissance (ISR) requirements do you have?
    General Votel. a. USSOCOM's Intelligence Functions: Geographic 
Combatant Commanders (GCCs) assign specific tasks and missions to 
allocated Special Operations Forces (SOF); in turn, SOF conduct 
activities that are different from conventional military missions. 
These activities and missions have unique intelligence requirements 
that require special capabilities for collection. Where conventional 
forces are often most focused on the operational to strategic level of 
intelligence, special operations require the most precise and specific 
level of detailed tactical information possible in order to ensure 
mission success. A distinct analytic capability, based on unique SOF 
collection requirements, is required to ensure SOF receive tailored, 
detailed, and timely intelligence. In order to execute DOD's mandate as 
part of national strategy and policy, SOF mist assess current and 
future threats within each GCC's area of responsibility and posture to 
minimize of defeat those threats. This requires a deeper level and 
finer resolution of analysis covering social networks, human identity, 
political environment, economics/business and organizational networks.
    b. USSOCOM's Intelligence Requirements: Since 2011, operational 
requirements for SOF ISR and Service ISR support to SOF have grown 
between 10% and 14% per year while available ISR sourcing solutions 
have declined, with the sharpest decrease (36%) from FY14 to FY15. 
While we cannot accurately predict the growth of SOF ISR requirements 
over time, it is apparent that the global demand for SOF Intelligence, 
Surveillance, and Reconnaissance (ISR) capabilities will continue to 
grow over the next several years.
    c. USSOCOM's Intelligence Initiatives:
    1. Continued Interagency Coordination: USSOCOM maintains a close-
knit relationship with the U.S. Government partners in the Intelligence 
Community (IC). However, SOF niche requirements and the compressed 
timelines associated with special operations do require dedicated 
tactical organic collection and analysis as part of the SOF enterprise. 
Extensive coordination is done between agencies and in-depth research 
accomplished to ensure compliance with established procedures. SOF 
intelligence analysts communicate daily with IC partners on all aspects 
of intelligence production to mitigate and avoid duplication of effort 
in the production cycle.
    2. USSOCOM ISR Roadmap: The ISR Roadmap outlines analysis of the 
command's overarching plan for ISR. It compares projected requirements 
against programmed resources, identifying investment strategies and 
characterizing gaps between SOF and service plans. The fundamental 
pillar of this roadmap is the shift in ISR terminology, which 
characterizes varying levels of capability across the four legs of the 
ISR pyramid: platforms, sensors, data transport, and processing, 
exploitation, and dissemination (PED). This differentiation between 
levels of ISR capability is critical to the Roadmap as it enables 
commanders to better articulate what they need. This refined 
terminology enables USSOCOM to make better resourcing and acquisition 
decisions.
    Mr. Wilson. What manned and unmanned ISR systems are you investing 
in, and why? How do you coordinate with the Services in these areas?
    General Votel. a. USSOCOM ISR Investments:
    1. Airborne ISR (AISR) manned and unmanned platforms have been 
operating in mostly permissive threat environments and good weather 
conditions. Manned platforms have been used to help mitigate the 
impacts of poor weather to effective ISR, but come with limited 
endurance. SOF's global mission and emerging threats dictate that SOF 
AISR must be able to operate in non-permissive, hostile, or sensitive 
areas where our current platform inventory cannot operate without risk 
of compromise.
    2. Through analysis supporting the development of the ISR Roadmap, 
shortfalls in tactical/organic capability were identified to support 
theater SOF missions. In response to those gaps, two distinctly 
different UAS capabilities are being pursued to provide a collection 
capability for the Theater Special Operations Commands (TSOCs); the 
Multi-Mission Tactical UAS and the Army Group III UAS. These two 
systems will provide an unmanned option to meet TSOC collection 
requirements. Following the decision to retain the U-28, USSOCOM 
initiated a Next Generation AISR study as part of the development of an 
Initial Capabilities Document identifying the requirements of the 
manned AISR platform to replace the U-28.
    b. USSOCOM-Service ISR Coordination: Coordination with the Services 
is conducted through a variety of opportunities including individual 
Key Leader Engagements, SOCOM-Service Warfighter Talks, submission of 
Integrated Priority Lists, participation in OSD and Joint Staff 
Battlespace Awareness meetings and integration forums, and review and 
coordination of Joint Capability Integration Development System 
requirement documentation.
    Mr. Wilson. What role does your J2 (Intelligence) Director play in 
identifying and filling those unique requirements?
    General Votel. a. Within USSOCOM J2, the J24 Intelligence 
Capabilities and Requirements Division oversees the Intelligence 
Portfolio and manages J2 responsibilities for the identification, 
evaluation, and validation of SOF-peculiar intelligence related 
requirements as well as providing resourcing advocacy on behalf of the 
SOF intelligence network. The J2 utilizes data calls, Defense Readiness 
Reporting System, and integrated priority lists (IPL) submissions in 
addition to leading multiple requirements forums, including the SOF ISR 
Council, to conduct planning, analysis, development, and implementation 
of TSOC and Component intelligence requirements in accordance with 
Special Operations Forces Capability Integration Development (SOFCIDS) 
Authority. Additionally, the J2 oversees critical intelligence 
capability initiatives that require formal documentation and validation 
through the SOFCIDS and Special Operations Command Requirements 
Evaluation Board (SOCREB) processes.
    b. USSOCOM, as authorized by the Joint Requirements Oversight 
Council (JROC), is designated the Joint Capabilities Board and has 
delegation of authority to approve and pursue Special Operations 
Capabilities. This authority is recognized by the Joint Staff and the 
Services and supported by the Department. When USSOCOM validates its 
Requirements it does so with the authority of the JS and JROC.
    c. Joint Requirements Oversight Council (JROC) Memorandum 179-09 
(dtd: 2 Nov 09) approved USSOCOM's SOCREB designation as the Special 
Operations Joint Capabilities Board (JCB). The SOCREB manages and 
approves all Special Operations-Peculiar capability documents 
designated below the Joint Staffing Designator (JSD) of JROC Interest. 
Having the authorities to approve Special Operations-Peculiar 
capability documents also gives SOCOM the responsibility for 
certifications and/or endorsements of all documents designated JCB 
Interest and below.
    d. In the cases where the Joint Staff has responsibility (JROC 
Interest) for certification and endorsements, and the JROC has 
validation authority, USSOCOM documents will be endorsed by the SOCREB, 
the Joint Staff organization will certify, endorse, or waive each item, 
and provide an associated memo to the Joint Staff Gatekeeper to support 
staffing and validation.
    Mr. Wilson. How is SOCOM working to resource Theater Special 
Operations Command intelligence requirements?
    General Votel. a. Theater Special Operations Command (TSOC) 
intelligence requirements are resourced in accordance with 
authoritative guidance outlined in DODD 5100.03, Defense Planning 
Guidance (DPG), USSOCOM Capabilities and Planning Guidance (CPG), and 
Program Objective Memorandum (POM) Preparation Instructions (PPI). 
TSOC's intelligence requirements are assessed to ensure they are SOF-
peculiar, supported by validated requirements, and satisfy USSOCOM's 
highest priorities.
    b. TSOCs intelligence requirements appropriate for DIA MIP funding 
are submitting through the Intelligence POM (IPOM) process, whereas 
TSOC intelligence requirements that meet SOF current and future mission 
requirements are submitted through the POM process are resourced with 
MFP-11 and MFP-3. Validated TSOC intelligence priority shortfalls may 
be supported and resourced through annual un-funded requirement (UFR) 
process.
    Mr. Wilson. What role is SOCOM playing in the Defense Intelligence 
Agency's new Defense Clandestine Service?
    General Votel. USSOCOM's relationship to DIA/DCS is similar to that 
of the military services. Specific details were provided at a 
classified level in response to House Appropriations Committee-Defense 
(HAC-D) requests for information (RFIs) on 27 Aug 2014 by the Office of 
the Undersecretary of Defense for Intelligence. USSOCOM provided 
additional information in response to RFIs from the House 
Appropriations Committee on Surveys and Investigations (HAC S&I).
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HUNTER
    Mr. Hunter. General Votel, I'm aware that almost every Army Special 
Operations unit under your command is requesting a commercially 
available product to fill capability gaps in their intelligence 
requirements. These units are saying that the current program of record 
does not meet their operational needs. Given this information and the 
obvious failure of DCGS-SOF to provide this capability, how do you plan 
to hold program managers and staff accountable to the tax payer and the 
men and women under your command that expect a working system?
    General Votel. Special operations personnel have always had a high 
demand for advanced analytical capabilities to understand and target 
enemy networks. During the course of the conflicts in Iraq and 
Afghanistan, some special operations units relied on capabilities 
provided by Palantir to meet these requirements. In 2009 USSOCOM 
directed that Palantir be used as an interim solution for advanced 
analytics. To date, USSOCOM has invested over $30M in fielding Palantir 
for Special Operations Forces (SOF). This interim solution continues to 
deliver advanced analytic capabilities to our operators and 
intelligence personnel and makes a difference on the battlefield.
    USSOCOM continues to field Palantir to units supporting counter-
ISIL operations in Iraq and Syria. However, the FY 2014 National 
Defense Authorization Act directed all DCGS programs to openly compete 
requirements for commercial solutions. Therefore, USSOCOM released an 
All-Source Analytic Environment (ASAE) Request for Proposal to industry 
to create a long-term program of record solution to address these 
requirements. USSOCOM is currently in vendor source selection for this 
program, and will look to employ the best solution as part of DCGS-SOF.
    DCGS-SOF continues to provide Full Motion Video Processing, 
Exploitation and Dissemination (FMV PED) and Signals Intelligence 
(SIGINT) enablers to SOF. These capabilities are fully fielded and 
employed every day. Deployed operators and intelligence personnel don't 
need to request the DCGS-SOF Enterprise SOF Data Layer, because it is 
already there providing access to key information.
    The program manager and the entire DCGS-SOF team are keenly aware 
of the need to deliver capability to the operator and value to the 
taxpayer. Since 2008, the DCGS-SOF team has been providing exceptional 
capability to the SOF operator supporting the FMV PED and SIGINT 
missions. Over the long term, the team is committed to maintaining an 
advanced analytic capability that delivers on targeting enemy networks. 
DCGS-SOF will remain the overarching program we use to deliver 
outstanding intelligence capability to our special operators around the 
globe.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. What is the status of FY15 Counterterrorism 
Partnerships Fund (CTPF) execution?
    Secretary Lumpkin. First, thank you for making the Counterterrorism 
Partnerships Fund (CTPF) available to the Department of Defense to 
provide additional support and assistance to partner nation security 
forces for counterterrorism and crisis response activities. Since my 
designation as the Department's fund manager in February of this year, 
I have been overseeing the development of an implementation strategy 
that provides support in an efficient and effective manner.
    On February 24, 2015, and March 16, 2015, the Department of Defense 
notified Congress of its intent to transfer $220.5 million and $279.5 
million, respectively, from the fund to Operation and Maintenance 
accounts to provide immediate assistance to vetted elements of the 
Syrian opposition and other appropriately vetted Syrians and groups for 
the remainder of fiscal year (FY) 2015. The Syria Train and Equip 
program consists of four inter-related efforts to train and equip, 
sustain, and increase the numbers of appropriately vetted Syrian 
opposition forces.
    Additionally, the Department has developed partnership concepts for 
five regions in the U.S. Central Command (USCENTCOM) and U.S. Africa 
Command (USAFRICOM) areas of responsibility: the Levant, Yemen, the 
Lake Chad Basin, Sahel-Maghreb, and East Africa. Interagency review of 
these papers was completed on Friday, April 3. The concepts will serve 
as the strategic foundation for the development of program-level 
proposals to support counterterrorism and crisis response activities in 
each of the five regions. These activities may include partner nation 
capacity building, U.S. forces enabling support, and other activities 
authorized under a number of different authorities available to the 
Department.
    USAFRICOM and USCENTCOM planners have begun developing program-
level proposals to support each of the five partnership concepts. These 
proposals are currently being reviewed to identify which can be 
executed in FY 2015, and which should be scheduled for execution in FY 
2016. Programs to support the partnership concept for Yemen will be 
delayed until the security and political situation there improves 
sufficiently.
    Mr. Brooks. What are the Department's priorities and the process 
for allies and the Services to request FY15 CTPF funding?
    Secretary Lumpkin. In determining Department of Defense (DOD) 
priorities for Counterterrorism Partnerships Fund (CTPF) funding that 
are consistent with the new authority, we have worked closely with an 
interagency counterterrorism board in developing a governance mechanism 
that uses the National Strategy for Counterterrorism Tier Focus Areas 
as a foundation for our effort. We determined that these focus areas, 
that are used to inform regional and functional CT strategies, would be 
appropriate in developing strategies and programs to be funded under 
the CTPF. Additionally, we excluded Tier Focus Areas that are already 
well-funded; for example, Iraq and Afghanistan.
    Using the Tier Focus Areas as a starting point, SOLIC leadership 
oversaw the development of strategic-level partnership concepts for 
five regions in the U.S. Central Command (USCENTCOM) and U.S. Africa 
Command (USAFRICOM) areas of responsibility: the Levant, Yemen, the 
Lake Chad Basin, Sahel-Maghreb, and East Africa. These concepts were 
developed in close coordination with USAFRICOM, USCENTCOM, the Joint 
Staff, relevant regional and functional offices within OSD Policy, and 
DOD Comptroller. They were subsequently reviewed by other departments 
and agencies through an NSC-led interagency review process that 
concluded on April 3, 2015.
    Now that these concepts are finalized, they will serve as the 
strategic foundation for the development of program-level proposals to 
support CT and crisis response activities in each of the five regions. 
Country teams have been working closely with partner nation militaries 
to identify capability gaps and assess current and future absorptive 
capacity. Based on that information, USAFRICOM and USCENTCOM will 
submit program-level proposals to support each of the five partnership 
concepts. These program-level proposals will be analyzed and 
prioritized based on their urgency and executability.
    Mr. Brooks. When will the committee receive the Department's 
reprogramming requests for use of FY15 CTPF?
    Secretary Lumpkin. On February 24, 2015, and March 16, 2015, the 
Department notified Congress of its intent to transfer $220.5 million 
and $279.5 million, respectively, from the fund to Operation and 
Maintenance accounts to continue to provide immediate assistance to 
vetted elements of the Syrian opposition and other appropriately vetted 
Syrian groups for the remainder of fiscal year (FY) 2015.
    I anticipate that the Department will submit other reprogramming 
requests within the next 60 days to fund other programs of assistance 
identified to support partner and U.S. counterterrorism and crisis 
response activities, as program-level proposals are approved. As part 
of the Counterterrorism Partnerships Fund (CTPF) proposal review 
process, CTPF stakeholders are determining which proposals can be 
executed in FY 2015, and which should be scheduled for execution in FY 
2016.
    Mr. Brooks. Has the Department released the detailed FY16 CTPF 
budget justification material? If not, does it plan to release the FY16 
CTPF justification details?
    Secretary Lumpkin. The Department of Defense released the fiscal 
year 2016 Counterterrorism Partnerships Fund budget justification 
material on Monday, April 6, 2015.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
